<html>
<title> - STRENGTHENING THE NATIONAL HISTORICAL PUBLICATIONS AND RECORDS COMMISSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





    STRENGTHENING THE NATIONAL HISTORICAL PUBLICATIONS AND RECORDS 
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2010

                               __________

                           Serial No. 111-80

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 2010.....................................     1
Statement of:
    Beschloss, Michael R., Presidential historian, vice 
      president, Board of Directors, Foundation for the National 
      Archives; Dr. Steven Hahn, Roy F. and Jeannette P. Nichols 
      professor of history, University of Pennsylvania; Karen 
      Jefferson, head of archives and special collections, 
      Atlanta University Center; Dr. Ira Berlin, distinguished 
      university professor, University of Maryland, representing 
      the American Historical Association; and Dr. Pete Daniel, 
      curator, National Museum of American History, retired, 
      representing the Organization of American Historians.......    78
        Berlin, Dr. Ira..........................................    97
        Beschloss, Michael R.....................................    78
        Daniel, Dr. Pete.........................................   104
        Hahn, Dr. Steven.........................................    82
        Jefferson, Karen.........................................    90
    Gottlieb, Peter, State archivist of Wisconsin, representing 
      the Society of American Archivists; Barbara Franco, 
      director, Pennsylvania Historical and Museum Commission, 
      representing the American Association of State and Local 
      History; Barbara Teague, Kentucky State archivist and 
      records administrator, representing the Council of State 
      Archivists; Kaye Lanning Minchew, director of archives, 
      Troup County, GA, representing the National Association of 
      Government Archives and Records Administrators; and Susan 
      Holbrook Perdue, director, Documents Compass, Virginia 
      Foundation for the Humanities, representing the Association 
      for Documentary Editing....................................   120
        Franco, Barbara..........................................   126
        Gottlieb, Peter..........................................   120
        Minchew, Kaye Lanning....................................   144
        Perdue, Susan Holbrook...................................   151
        Teague, Barbara..........................................   134
    Larson, Hon. John B., a Representative in Congress from the 
      State of Connecticut, member of National Historical 
      Publications and Records Commission; David S. Ferriero, 
      archivist of the United States, chairman, National 
      Historical Publications and Records Commission; and 
      Kathleen M. Williams, executive director, National 
      Historical Publications and Records Commission, U.S. 
      National Archives and Records Administration...............    11
        Ferriero, David S........................................    16
        Larson, Hon. John B......................................    11
        Williams, Kathleen M.....................................    64
Letters, statements, etc., submitted for the record by:
    Berlin, Dr. Ira, distinguished university professor, 
      University of Maryland, representing the American 
      Historical Association, prepared statement of..............    99
    Beschloss, Michael R., Presidential historian, vice 
      president, Board of Directors, Foundation for the National 
      Archives, prepared statement of............................    80
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Daniel, Dr. Pete, curator, National Museum of American 
      History, retired, representing the Organization of American 
      Historians, prepared statement of..........................   106
    Ferriero, David S., archivist of the United States, chairman, 
      National Historical Publications and Records Commission, 
      prepared statement of......................................    18
    Franco, Barbara, director, Pennsylvania Historical and Museum 
      Commission, representing the American Association of State 
      and Local History, prepared statement of...................   128
    Gottlieb, Peter, State archivist of Wisconsin, representing 
      the Society of American Archivists, prepared statement of..   122
    Hahn, Dr. Steven, Roy F. and Jeannette P. Nichols professor 
      of history, University of Pennsylvania, prepared statement 
      of.........................................................    84
    Jefferson, Karen, head of archives and special collections, 
      Atlanta University Center, prepared statement of...........    92
    Larson, Hon. John B., a Representative in Congress from the 
      State of Connecticut, member of National Historical 
      Publications and Records Commission, prepared statement of.    13
    Minchew, Kaye Lanning, director of archives, Troup County, 
      GA, representing the National Association of Government 
      Archives and Records Administrators, prepared statement of.   146
    Perdue, Susan Holbrook, director, Documents Compass, Virginia 
      Foundation for the Humanities, representing the Association 
      for Documentary Editing, prepared statement of.............   153
    Teague, Barbara, Kentucky State archivist and records 
      administrator, representing the Council of State 
      Archivists, prepared statement of..........................   136
    Williams, Kathleen M., executive director, National 
      Historical Publications and Records Commission, U.S. 
      National Archives and Records Administration, prepared 
      statement of...............................................    66

 
    STRENGTHENING THE NATIONAL HISTORICAL PUBLICATIONS AND RECORDS 
                               COMMISSION

                              ----------                              


                        WEDNESDAY, JUNE 9, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Norton, Driehaus, 
Westmoreland, and Chaffetz.
    Also present: Representative Jordan.
    Staff present: Darryl Piggee, staff director/counsel; 
Yvette Cravins, counsel; Frank Davis and Anthony Clark, 
professional staff members; Charisma Williams, staff assistant; 
John Cuaderes, minority deputy staff director; Rob Borden, 
minority general counsel; Jennifer Safavian, minority chief 
counsel for oversight and investigations; Adam Fromm, minority 
chief clerk and Member liaison; Kurt Bardella, minority press 
secretary; Seamus Kraft, minority deputy press secretary; 
Justin LoFranco, minority press assistant and clerk; Tom 
Alexander, minority senior counsel; and Ashley Callen and 
Jonathan Skladany, minority counsels.
    Mr. Clay. Good afternoon. The Information Policy, Census, 
and National Archives Subcommittee will now come to order.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    Welcome to today's hearing entitled, ``Strengthening the 
National Historical Publications and Records Commission.'' 
Because we have a long list of witnesses today who will talk 
about the specifics of the Commission, I will make my remarks 
brief and submit my full statement for the record.
    It has been more than 20 years since the NHPRC's 
authorization was set at $10 million. In the past there have 
been attempts to eliminate it by those who claim the Commission 
was wasteful or redundant. These efforts, I believe, reflected 
a fundamental misunderstanding of what the NHPRC is and what it 
does. I am confident that this confusion is, like the records 
that the Commission's grants preserve are, now part of our 
past.
    I introduced H.R. 1556 last year to authorize the NHPRC at 
$20 million a year for the next 5 years. I hope the bill will 
enjoy the broad and bipartisan support in the House that it 
clearly does across the country, judging from the great 
interest shown in this hearing.
    I wholeheartedly support the NHPRC. It is a vital, 
successful, and efficient program. I strongly encourage my 
colleagues to support increasing the authorized funding to a 
level commensurate with the Commission's goals and one that 
recognizes its importance in helping to preserve and make 
available our Nation's documentary heritage.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Clay. I now yield to my colleague, Mr. Chaffetz, who is 
sitting in for the ranking member today. Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman. I would like to 
start by asking unanimous consent to first excuse Patrick 
McHenry. He had a good excuse of getting married over the 
weekend. We congratulate him on that and understand that he is 
not here. We are all so pleased that he actually got married.
    Mr. Clay. Without objection, we will give him a noted 
absence.
    Mr. Chaffetz. We would also ask unanimous consent to allow 
Mr. Jordan, who does serve on the Oversight and Government 
Reform Committee, to join us here on the dias.
    Mr. Clay. Without objection.
    Mr. Chaffetz. Thank you, Mr. Chairman. I appreciate it.
    Mr. Chairman, I need to bring up something that is 
troublesome to us just before I give my opening remarks here. 
The House rules require that the written statements of non-
governmental witnesses and witnesses representing non-
government entities shall include a curriculum vitae and 
disclosure of recent grants and contracts awarded to themselves 
and the entities they are representing.
    Despite a request by the committee staff, only one 
disclosure has been provided to the members of the committee. 
Even that one disclosure, provided on behalf of the American 
Association of State and Local History by Ms. Franco, was 
incomplete as it did not include Ms. Franco's curriculum vitae.
    Mr. Chairman, because the required Truth in Testimony 
disclosures have not been included in the written statements of 
Mr. Beschloss, Dr. Hahn, Ms. Jefferson, Dr. Berlin, Dr. Daniel, 
Dr. Gottlieb, and Ms. Holbrook Perdue, I move, pursuant to 
House Rule 11, clause 2(g)(4), that the written statements of 
these seven witnesses be excluded from the official committee 
record and the print of this hearing.
    Mr. Clay. Are you waiting for me to rule on that?
    Mr. Chaffetz. Yes, please.
    Mr. Clay. We do have all of the information that you 
requested. If you would like, we could turn it over to you now.
    Mr. Chaffetz. Well, obviously, we would like it sooner 
rather than later. I guess if you did have it all, again, I 
have the greatest respect for you, I am a good friend. Why 
weren't we provided that information prior to the hearing?
    Mr. Clay. I really couldn't tell you. But I am just hearing 
about it now and it is kind of embarrassing. Hopefully, you 
will allow these witnesses to be here. If you don't think it is 
enough time, I understand.
    Mr. Chaffetz. Oh, clearly. The witnesses have come at great 
time and expense and what-not to be here, but the rules are 
there for a reason.
    Mr. Clay. Sure.
    Mr. Chaffetz. It allows us to dive deeper into the 
information, ask probing and informative questions to make the 
most of this hearing at the taxpayers' dime. I appreciate your 
sincerity and sharing that with me, but we should have had 
these records before.
    Mr. Clay. And I agree.
    Mr. Chaffetz. And this is an Archives meeting, for goodness 
sake.
    Mr. Clay. You should have had those records. I don't have a 
good explanation as to why you don't have them, and most of 
this has come to us today.
    Mr. Chaffetz. If you could provide them. I mean, obviously, 
we want them as soon as possible. We want to proceed with the 
hearing. We have important information to review. But that 
simply shouldn't happen. I have noted it.
    Mr. Clay. And let me apologize for the delay. We will 
follow the rules and this won't happen again.
    Mr. Chaffetz. I appreciate the chairman. Thank you.
    Mr. Clay. Thank you.
    Mr. Chaffetz. I do have a statement; I will proceed.
    Mr. Clay. Go ahead, proceed with the statement.
    Mr. Chaffetz. Mr. Chairman, our economy is reeling. Jobs 
are scarce and many Americans are frustrated that Washington 
isn't listening to loud calls for belt-tightening and fiscal 
restraint. And just like families that are forced to cut back 
on good things like music lessons or vacation, Congress is also 
expected to cut programs, however meritorious, that are not 
essential to the core mission of our Federal Government. The 
Federal Government.
    And I need to emphasize that because, quite frankly, we 
can't be all things to all people. We are trying to be, but we 
are more than $13 trillion in debt. We are paying more than 
$660 million a day just in interest. That is just our interest 
payment. We are not meeting the basic needs of our Federal 
Government, and the question and the concern with the bill and 
some of the things that I have heard discussed before this is 
expanding a program that, quite frankly, doesn't necessarily 
meet that Federal nexus.
    Congress, however, doesn't seem to have received this 
message, so the American people are taking matters in their own 
hands. We have a program, for instance, such as YouCut, where 
each week taxpayers can vote on one of five nonessential 
programs to cut from the Federal budget. Republicans then bring 
the top vote-getter to the floor for a vote on cutting it.
    This week tens of thousands of Americans have voted through 
YouCut to strip funding from the National Historic Publications 
and Records Commission from the Federal budget. The American 
people believe that for whatever contributions the Commission 
has made to our society through these grants, at a time when 
our Government is bankrupt, America can live without it.
    We are going to have to make difficult decisions about what 
we are going to spend and what we are not going to spend. I 
happen to agree with those tens of thousands of American people 
who have said the savings may be modest in comparison to a 
multi-trillion dollar budget and the program, while well-
intended, something has to give.
    Chairman Clay, in your December 16, 2009, opening statement 
reminded us that ``managing, preserving, and providing prompt 
and proper access to Federal records has been and must continue 
to be the primary mission of the National Archives.'' I totally 
and wholeheartedly agree. The mission and the goals that the 
Archives provides is critical to our Nation's future. There are 
things that, if we don't save them now, they won't be saved in 
the future. And I concur with that.
    President Obama recently instructed agencies to cut 
programs ``least critical'' to their central mission. As the 
central mission of the National Archives is to preserve records 
of the National Government, and while the Commission is focused 
on State and local preservation, it most definitely qualifies 
this Commission as least critical and funding should be cut.
    Yesterday, OMB Director Orszag echoed the President's 
message calling for ``duplicative'' programs to be cut. The 
Commission does the same thing that the much larger and well-
funded National Endowment for the Humanities and the Institute 
for Museum and Library Services do. I agree with Director 
Orszag that duplicative programs like the Commission can and 
should be stripped from the budget. These are difficult 
decisions. I wish we could just have the luxury of being able 
to do this, but we simply don't.
    The American people have the right to a government that 
saves more than it spends. The first question we must ask 
ourselves as stewards of the taxpayers' hard-earned money is: 
What can America live without? Not what more can we spend other 
people's money on. That is what YouCut is all about.
    We certainly won't solve America's fiscal problems by 
simply cutting the Commission. I understand that. We have to 
start somewhere, and the American people have spoken; they want 
us to start here.
    I yield back the balance of my time, Mr. Chairman. Thank 
you.
    Mr. Clay. Thank you.
    Just for the record, I would really love to hear what you 
think about the impact that the NHPRC has had in Utah. I am 
looking at the total funds spent and for what purposes, 
establishing a network of archives in Utah, public record 
support documenting the history of the people of the Great 
Basin in Utah; State archive support, support going to the 
University of Utah; Utah Historical Advisory Board; and so on.
    Mr. Chaffetz. Cut it. Cut it. Cut it. I got elected----
    Mr. Clay. Doesn't this have an impact for the people of 
your State?
    Mr. Chaffetz. If I could have some time, with all due 
respect, we have to make tough decisions. I will be the first 
to say, yes, even if it affects Utah, cut it. We can't do it. 
We can't be all things to all people.
    Mr. Clay. OK. All right, thank you for that.
    Mr. Chaffetz. Sure.
    Mr. Clay. Any other Members? Representative Driehaus, you 
are recognized.
    Mr. Driehaus. Thank you, Mr. Chairman. I hadn't prepared a 
statement, but I feel inclined to offer one now.
    Coming from Cincinnati, OH, where history is tremendously 
important to us, to our culture, to our institutions, I 
couldn't disagree with the gentleman from Utah more. The 
relatively minor investment that is made in preserving our 
history and preserving our culture is critical, critical to the 
American psyche and critical to so many communities across the 
country.
    If we are looking for ways to address spending, if we are 
looking for ways to address the deficit, the gentleman will 
have an opportunity to vote, hopefully later this month, on a 
conference report dealing with Wall Street reform that would 
have prevented, had it been passed earlier, the greatest 
recession we have seen in our lifetimes, which has been the 
single greatest contributor to the deficit. He voted against it 
once and he has an opportunity to vote for it for the future, 
so I hope he takes advantage of that opportunity.
    Likewise, I don't know that the gentleman spoke out against 
two wars that were unfunded by the preceding administration.
    Mr. Chaffetz. Oh, yes I did.
    Mr. Driehaus. I hope he would have done that. Likewise, we 
had a tax cut under the Bush administration that led to the 
greatest deficit that we have seen in our lifetimes because we 
were set on a path that was going straight down when we walked 
in the door.
    But this isn't about that. This is about preserving our 
history because it is so critically important to the culture of 
communities across the United States. We do have a 
responsibility to preserve that culture. We do have a 
responsibility to speak to our history so that we don't make 
the mistakes in the future of repeating past mistakes.
    So, Mr. Chairman, I would strongly disagree with my 
colleague from Utah. I believe the NHPRC is critically 
important. I support its funding and I am pleased that you are 
having the hearing today, and I look forward to hearing from 
our witnesses.
    Mr. Chaffetz. Would the gentleman yield? You can always 
reclaim your time if you don't like the direction I am going.
    Mr. Clay. The gentleman did not yield.
    Does any other Member prefer to make an opening statement?
    Mr. Jordan. [Remarks made off mic.]
    Mr. Clay. Yes. You have 3 minutes.
    Mr. Jordan. Three minutes?
    Mr. Clay. Yes, sir.
    Mr. Jordan. I would yield the balance of my time to the 
ranking member.
    Mr. Chaffetz. Thank you.
    To clarify, answer the gentleman's question, I campaigned 
on the very idea the Republicans had the House, the Senate, the 
Presidency, and they blew it. I did look back in retrospect and 
said, yeah, what we did in Iraq was wrong, and I questioned the 
president in the move in Afghanistan. So to help clarify the 
record, yeah, I have been very critical, even when it says the 
word ``Bush.'' I think I have been even in my principles.
    Let me also clarify here that the National Archives and 
Records Administration proposed budget for fiscal year 2010 is 
roughly $467 million, the National Endowments for the 
Humanities is roughly $167 million, and the Institute for 
Museum and Library Services is roughly $240 million, for a 
total of roughly $874 million. Now, somehow we are going to 
have to survive on that kind of money. What is being proposed 
is to increase that even more.
    At the same time, you have President Obama, you have the 
OMB Director calling for a 5 percent cut, a 5 percent across-
the-board cut. Let me read this real quickly. This is from 
Director Orszag, June 8th: ``The bottom line is we do not have 
the luxury of simply spending more. We must continually review 
all spending and make sure every dollar addresses a clear need 
or problem. We can no longer afford the old way of doing 
business here in Washington, DC. As described below, the 
President is asking for a renewed effort to go through your 
budget line by line, with a critical eye to target programs 
that are not the best use of taxpayer dollars.''
    We still have hundreds of millions of dollars allocated to 
preserving the needed records.
    One last thing, Mr. Chairman, and I will conclude. On page 
2 of Director Orszag's 5 percent target: ``Your agency should 
identify discretionary programs or sub-programs that constitute 
at least 5 percent of your agency's fiscal year 2000 
discretionary appropriations as enacted.''
    But what we are talking about here is a doubling. So I 
think, ironically enough, I am being consistent with the 
President and the OMB Director, and I think the gentleman from 
Ohio and others should answer as to why they think, in this 
economic peril that we are in, why they can justify doubling a 
budget. Doubling.
    I yield back.
    Mr. Clay. Mr. Chaffetz, the order was to look at programs 
in agencies that were duplicitous and that were wasteful, and I 
am sure that those agencies will be able to find some cuts.
    Let's move toward the testimony of the witnesses.
    I would now like to introduce our first panel, and the 
first witness will be the Honorable John Larson, Member of 
Congress from the great State of Connecticut. Congressman 
Larson has honorably served the people of the First District of 
Connecticut since 1999 and is the Chair of the Democratic 
Caucus. Congressman Larson has been an active and enthusiastic 
member of the NHPRC since 2007.
    Our next witness is Archivist of the United States, David 
Ferriero. Mr. Ferriero has led the National Archives since his 
confirmation last November. Mr. Ferriero previously served as 
the Andrew W. Mellon director of the New York Public Library, 
the largest public library system in the United States.
    We will then hear from Ms. Kathleen Williams, who has been 
executive director of the NHPRC since 2008, after serving as 
deputy director for 4 years. She previously spent over 20 years 
as an archivist.
    I thank all of our witnesses for appearing today and look 
forward to their testimony. I notice this is your first visit, 
Ms. Williams. We are not as ferocious as we may seem. 
[Laughter.]
    It is the policy of the committee to swear in all witnesses 
before they testify. Would you please stand and raise your 
right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative, and we will try to get through each witness's 
testimony before we recess.
    Mr. Larson, you may proceed.

STATEMENTS OF HON. JOHN B. LARSON, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF CONNECTICUT, MEMBER OF NATIONAL HISTORICAL 
    PUBLICATIONS AND RECORDS COMMISSION; DAVID S. FERRIERO, 
 ARCHIVIST OF THE UNITED STATES, CHAIRMAN, NATIONAL HISTORICAL 
PUBLICATIONS AND RECORDS COMMISSION; AND KATHLEEN M. WILLIAMS, 
   EXECUTIVE DIRECTOR, NATIONAL HISTORICAL PUBLICATIONS AND 
    RECORDS COMMISSION, U.S. NATIONAL ARCHIVES AND RECORDS 
                         ADMINISTRATION

                STATEMENT OF HON. JOHN B. LARSON

    Mr. Larson. Well, thank you, Chairman Clay. I really 
appreciate the opportunity to testify before you and ranking 
member for the day Mr. Chaffetz, my distinguished colleague, 
Mr. Driehaus from Ohio, Mr. Jordan as well. Thank you for 
affording me the opportunity to come and address the committee 
today on what I believe is an extraordinarily important issue 
for the country, for the Nation, and one that I want to 
commend, from the outset, Chairman Clay.
    Chairman Clay has recognized the traditional under-funding 
that has taken place in such a vital aspect of our Nation's 
history and its culture.
    I am a strong supporter, in fact, the cosponsor of H.R. 
1556, because I don't believe the decisions that confront us, 
as have been enumerated both by Mr. Driehaus and by Mr. 
Chaffetz, while they are important in terms of how we look at 
what we are assigned to do in the U.S. Congress, it is not a 
question of whether it is big government or smaller government; 
it is a question of how efficient the government is that we 
provide for the people. So as your responsibility, and ours all 
collectively, is to examine the budgets in our committees and 
to make sure that what we are producing carries with it the 
most beneficial and effective use of money that we can find.
    If I can, Mr. Chairman, I will seek permission to revise 
and extend my remarks, submit extraneous information, and 
summarize, if I will, because I think it is best to summarize 
this around an age-old debate, and one best articulated by 
Daniel Boorstin, who was the Librarian of Congress.
    Boorstin was very concerned about the, well, at the time he 
called it the Year of the Book, and what was happening in terms 
of literacy, what was happening in terms of the confluence of 
technology and literacy, and what was happening, in fact--and I 
think every Member of Congress and, I dare say, everyone in the 
audience can appreciate this--the differentiation between 
information and knowledge.
    It used to be commonplace that we would say we want it to 
be an informed citizenry. And yet it is hard, I think, for 
anyone to turn on the TV screen today and not see messages 
screaming across the bottom of a screen while you are getting 
direct news, while you are getting the forecast, while there is 
another sub-column over here, 24/7 cable. Clearly, Americans 
are informed. But are they more knowledgeable?
    So when we look at our great institutions, including the 
National Archives, the Library of Congress, these institutions 
become, for a democracy and a culture, a fortress of knowledge, 
differentiating between the information. And especially in this 
day and age when everything is instant, now, and everywhere, 
they become the storehouse of knowledge that allows the 
American citizen to peruse not only present and future, but 
everywhere in the past at their leisure.
    And that is why these primary documents, whether they be 
the documents and the comments and the opening comments of 
today's committee hearing, whether they be floor statements, 
whether they be historic in nature by virtue of the plethora of 
great Americans that have made contributions to this Nation, 
they do indeed become vitally important.
    Mr. Driehaus accounted for, in his statements, the need 
especially for our States and our municipalities and the need 
for us, if we are to be that beacon of light around the world, 
to lead intelligently and effectively with who we are as a 
people.
    It is one thing to talk about democracy, freedom, and 
liberty. It is another thing, for all cultures, but most 
importantly our culture, our people, our citizens, to have the 
kind of exposure that they need to the great gift of knowledge, 
historic preservation, and records that aren't just instant, 
now, and everywhere, but are the culmination of a Nation's 
history, of a people, of humanity in general.
    And I would submit that is the great strength of our 
country, our national archive system, our library, which is 
second to none in the world. If we are to bring about the kind 
of change that we would all like to see around the world, there 
can be no more effective use of money spent by this Congress 
than in making sure that great and ennobling message is able to 
reach beyond our borders, but, most importantly, within our 
borders, to educate our children and future generations, to 
develop our scholars, to put, in fact, our scholars at work.
    The National Archives were born out of the effort of 
Franklin Delano Roosevelt in a time far more difficult than 
what we face today. But they saw the necessity in investing in 
the Nation's history and making sure that we not only preserved 
it, but also used this, going forward, as a beacon of hope not 
only for our country, but, as we have seen, has served this 
Nation extraordinarily well.
    I want to commend you, Mr. Clay. I wholeheartedly support 
your legislation. I thank the committee for an opportunity to 
speak here this afternoon. I apologize that, as the chairman 
knows, we have a caucus that is going and, I guess, concurrent 
with votes that will be taking place on the floor as well, and 
I thank all of my colleagues for the opportunity to speak 
before you today.
    [The prepared statement of Mr. Larson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. I thank the witness for his appearance, and you 
are dismissed. Thank you.
    Mr. Ferriero, you may proceed.

                 STATEMENT OF DAVID S. FERRIERO

    Mr. Ferriero. Chairman Clay and members of the 
subcommittee, thank you for inviting me to participate in this 
hearing on the National Historic Publications and Records 
Commission, which is especially timely since today is 
International Archives Day. I thank you, Mr. Chairman, for 
introducing the reauthorization bill, and I would also like to 
thank Congressman Larson for being here today and for ably 
representing the House as a voting member on NHPRC.
    Although the National Archives is a steward of Federal 
records, the National Historic Publications and Records 
Commission augments that work by awarding competitive matching 
grants that help preserve and make accessible a much wider 
variety of important historical records that tell our American 
story.
    As Archivist of the United States, I serve as chair of the 
Commission. It is a responsibility that I am honored to have, 
and I say this as one who, for the past three decades in the 
library profession, has witnessed firsthand the power of these 
modest grants to encourage and leverage a wide variety of 
archival projects.
    The Commission's membership is drawn from executive, 
judicial, and legislative branches of the Federal Government 
and from professional associations of historians, editors, and 
archivists. It rigors the reviews and competitively selects 
projects each year that preserve historical documents and make 
them available to all Americans. The most difficult part of 
this process is that we must cast aside more excellent grant 
applications than we are able to fund. In my written testimony, 
I have provided a few examples of grants that work, and I can 
provide many hundreds of examples from every State in the 
country.
    Of course, each and every NHPRC grant is important to the 
people, institutions, and communities on the receiving end; 
however, the ultimate grant beneficiaries are future 
generations of Americans who will continue to learn from the 
history we are helping to discover, preserve, and make 
accessible.
    NHPRC grants, however, can also make records available in 
ways that have a dramatic impact on the lives of ordinary 
citizens today. A grant from NHPRC to Texas Tech established 
the Vietnam Archives Families of Vietnamese Political Prisoners 
Association Collection, which helps Vietnamese refugees 
immigrate to the United States. In June 2009, a former 
Vietnamese reeducation camp prisoner was able to obtain 
political asylum in the United States by using the documents 
found in this collection to prove his case.
    Another area where NHPRC support is making a difference is 
helping States and localities expand access to digitized 
records on the Web. Virtually every archives, museum, and 
library is struggling to meet these challenges of so many 
records, so much public demand, and so few resources to make 
them easily accessible. And electronic records, those created 
as digital files, increase the scale, cost, and complexity of 
the problem. It is a challenge we are acutely aware of with 
Federal records at the National Archives and it is a challenge 
we share with every State, city, county, and town across the 
Nation.
    I will be the first to admit that we do not have all the 
answers here in Washington. Through the NHPRC, however, we are 
able to fund innovative projects that contribute to a shared 
base of knowledge on best practices for creating, preserving, 
and providing access to electronic records. All of us in the 
Federal Government are very aware of the constrained budget 
environment. I would only add that the equally difficult budget 
situations in most States are having a troubling impact on 
State and local archival programs. I would argue that the 
preservation of historical records across the Nation is as 
important in tough economic times as it is in prosperous times, 
and support from NHPRC is particularly crucial in leveraging 
resources from State and the private sector, since NHPRC award 
amounts are usually matched one to one, and also in originating 
and sustaining jobs for archivists and researchers.
    Through its grants program, the NHPRC fulfills Congress's 
vision for national leadership to preserve and make accessible 
our Nation's rich documentary heritage. School children use 
these documents in their study of history; citizens use these 
documents to discover their own heritage and to affirm their 
basic rights; and storytellers use these documents to write new 
chapters in the American story. From the award-winning 
historical biography of John Adams to the PBS series on the 
Civil War and America's national parks, all are made possible 
through our support of the original documents in our Nation's 
archives.
    I know there are several individuals and organizations 
testifying today in support of your legislation. With my 
testimony, I also am including several letters from 
organizations that are not present here today but wanted their 
support to be included in this hearing record.
    Thank you again for the opportunity to appear before you, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Ferriero follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you so much, Mr. Ferriero.
    We will suspend now with witness testimony and the 
subcommittee will recess and reconvene immediately after these 
series of votes.
    [Recess.]
    Mr. Clay. The subcommittee will come to order. We will now 
pick up with Ms. Williams' testimony.
    You are recognized for 5 minutes.

               STATEMENT OF KATHLEEN M. WILLIAMS

    Ms. Williams. Thank you, Chairman Clay and members of the 
subcommittee, for inviting me to participate in this hearing on 
the reauthorization of funding for the National Historical 
Publications and Records Commission.
    I have been the executive director of the Commission since 
April 2008, and prior to that I served as deputy executive 
director for 4 years. During this time, I have had the 
privilege of overseeing a Federal grantmaking agency that plays 
a unique and valuable role in helping Americans access their 
historical records and that leverages its resources to maximum 
advantage.
    Grantees each year develop and implement dozens of projects 
to publish, preserve, and make known the Nation's most 
important collections of archives and personal papers to 
scholars, researchers, teachers, and ordinary citizens in every 
corner of America. Since 1964, the Commission has funded 
approximately 4,800 projects across the country. These projects 
in turn have laid the groundwork for countless venues that 
increase our understanding of the American story and reach 
millions of Americans, including classroom use of historical 
documents in schools; public exhibitions at historic societies 
and museums; prize-winning biographies of the founding fathers 
and other notable Americans; television series on the Civil 
War, John Adams, and numerous other topics; and new digitized 
collections that document such varied subjects as the history 
of the Florida Everglades and the work of noted conservationist 
Aldo Leopold.
    Through our grants programs, we are able to leverage funds 
from private and public resources to augment the Federal 
dollars we invest. In addition, the majority of Commission 
grants support jobs that move these projects forward.
    In the panels this afternoon, you will learn about the work 
of historians, documentary editors, and archivists, and the 
catalytic role the Commission plays in advancing that work for 
public benefit. You will learn about the thousands of 
repositories across the country that struggle with caring for 
and providing access to the Nation's historical records.
    Over the next 5 years, the Commission seeks to address 
several critical needs through its programs. First, one of the 
Commission's cornerstone grants programs is in publishing 
historical records, which supports projects that transcribe, 
annotate, and publish the historical records that document the 
American story, including the founding era, the modern 
Presidency, the civil rights movement, and more. To date, we 
have supported some 300 projects, a body of work that tells the 
Nation's remarkable history in the words of those who made that 
history. In the Internet age, digital additions have become 
vital tools for both preserving and making accessible primary 
source materials. In the years ahead, we should ensure 
historians and editors the opportunity to creatively adapt to 
the advantages of online publishing.
    Second, the archives field must address several challenges 
in dealing with the numerous backlog of unprocessed records and 
providing online access to collections. Over the past few 
years, the Commission has spearheaded new grant opportunities 
implementing approaches to archival work that address the 
hidden collections of historical documents to eliminate these 
backlogs and rapidly get these historical collections known and 
available to the public. We also are funding projects to 
digitize entire collections of historical records and put them 
online, using cost-effective methods and a streamlined 
approach. Institutions ranging from Princeton to the Denver 
Public Library are rapidly changing their approaches to 
archival cataloging preservation and providing online access to 
substantial collections through our grants.
    Third, at present, the NHPRC supports State historical 
records advisory boards with grants to develop statewide 
services and training in archives, as well as offering 
effective re-grant programs. The vast majority of State boards 
actively partner with the Commission in these vital efforts. In 
Missouri, for example, our partnership with the State board 
recently helped support a re-grant program for 14 projects 
across that State, including the archives of historic 
Booneville, the Jewish Federation of St. Louis, and the 
architectural archives at the St. Joseph Museums. The 
Commission stands ready to do more of this kind of work to 
strengthen historical records preservation and use.
    Finally, we are eager to develop targeted grants program 
that focuses on improving access to the Nation's records of 
servitude and emancipation. These documents are often extremely 
difficult to find and use, but they are critical resources for 
anyone doing genealogical and other historical research.
    The National Archives serves as a hub for the Nation's 
archives and the NHPRC is a key part of that process. The 
Commission looks forward to serving as a true and effective 
Federal partner in preserving and facilitating access to the 
Nation's historical records.
    Thank you again for this opportunity to discuss the 
Commission with the committee, and I look forward to answering 
your questions about the NHPRC and its work.
    [The prepared statement of Ms. Williams follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you, Ms. Williams, for your testimony.
    Now we will go to the questioning period, and I will start 
with Archivist Ferriero.
    As chairman of the Commission, can you please explain how 
the NHPRC is unique among all grantmaker supporting programs in 
history, archives, and the humanities?
    Mr. Ferriero. I think, having been a recipient of grants 
from both IMLS and NEH, I can speak to that, and now having 
chaired two meetings of the Commission. The NHPRC is focused on 
records, historical records. IMLS doesn't deal with archives; 
the L is for libraries, the M is for museums, and archives fall 
outside of their funding responsibilities. And NEH is focused 
on the humanities, not focused on records. And I think that is 
what distinguishes the NHPRC program.
    Mr. Clay. OK. Thanks for that response. Why should the 
Federal Government be interested in helping State and local 
archives and archivists preserve and make available non-Federal 
records?
    Mr. Ferriero. I think my message in my testimony is about 
telling the American story, and the ability to tell that 
American story is larger than Federal records. I have, under my 
purview, 10 billion items, but there are as many as that 
outside of my purview that are documents that tell the American 
story.
    Mr. Clay. Thank you for your response.
    Ms. Williams, what specifically would an increased 
authorized funding level mean for the Commission and its future 
grant recipients?
    Ms. Williams. Well, I think it would mean a couple of 
things, Mr. Chairman. I think it would help us to improve 
already existing programs and expand those. In particular, 
digitizing historical records really speaks to me and I think a 
lot of the rest of the citizenry in terms of direct access to 
these historical records. So I think we would certainly look to 
expand that. I think we would also look to use any increase to, 
in effect, enhance publishing projects to really draw on the 
challenge of working and producing online publications, and 
that is an investment that is a wise investment, again, for the 
American people that we are very eager to do. We do some of it 
now, but I think that there is some investment we could do with 
that.
    I think in my testimony just now I also indicated to you we 
are very eager to take on specific types of records, topical 
types, records of servitude and emancipation. I think the 
Congress itself has asked us to see how we can accommodate that 
and move such a new program forward, and I think we are very 
eager at the Commission to take that on.
    That is just a couple of examples that I can provide you 
with.
    Mr. Clay. And that inquiry's funding would help you 
assemble those records and enhance that effort, I am sure.
    Ms. Williams. That is correct. One of the most effective 
programs we have is in dealing with the States and the State 
boards, and we are able to do some of that now, I think, to a 
great result, but increased funding will let us put more of 
that funding out there.
    Mr. Clay. And how do NHPRC grants translate into jobs?
    Ms. Williams. Well, interestingly, I think a lot of the 
work that we support with historical records is very core work 
and it is very labor intensive, so, as a result, the bulk of 
the money that we award goes to either in publishing or in 
providing access and preserving goes toward basically jobs to 
carry out the work. This past year, for example, the Commission 
awarded about 120 grants, and of that about twice that amount 
in terms of jobs that are funded fully or in part from this, 
this is jobs for historians, archivists, those doing 
digitization work.
    Mr. Clay. Can you briefly describe the National Network of 
State Historic Advisory Boards and how that is crucial to the 
work of the NHPRC?
    Ms. Williams. Certainly. The States boards, virtually every 
State has a board and the territories as well, and we at the 
Commission have been partnering, we feel, very effectively with 
those boards for over 30 years in trying to provide them with 
the means to do statewide planning, provide statewide services, 
and issue what we call re-grants. This is basically the States 
having the ability to, based on their assessments of needs in 
their States, not us dictating in Washington how to spend it, 
but based on what they know the needs are in their State, 
whether it is training, preservation, digitization, they then 
issue that money out to smaller modest and smaller repositories 
to take care of those needs. So, for us, that is actually a 
critical partnership in order to get the Federal money out into 
local communities.
    Mr. Clay. OK. Thank you for your response.
    Representative Chaffetz.
    Mr. Chaffetz. Thank you. Thank you, Mr. Chairman.
    Look, the National Archives and Records Administration has 
given hundreds of millions of dollars of the people's money in 
order to fulfill a most definite need and service, and I 
appreciate the work that you do. Just yesterday, Chief of Staff 
Rahm Emmanuel highlighted that the administration has proposed 
a 3-year freeze in non-security discretionary funding and 
signed off on a directive to have a target to identify at least 
5 percent that can be cut out of the budget. What are you 
proposing to cut out of your budget and why would you support 
doubling of the grant program?
    Mr. Ferriero. I got those instructions yesterday afternoon. 
I have seen them for the first time. We will launch a process 
to identify the areas in our administration, in our agency 
where we are going to be making those cuts. The budget that is 
awaiting approval right now for fiscal year 2011 already is a 
$10 million reduction in our budget. We will be analyzing every 
piece of our legislation.
    Mr. Chaffetz. I hope you can understand and appreciate why 
some of us look at this and say the proposal in the bill is to 
double the funding. You are already starting to cut some; the 
White House is starting to cut some; the Republicans, through 
YouCut, are trying to cut some, and that is why we have a bit 
of a disagreement.
    We printed off the U.S. National Archives and Records 
Administration mission statement and I want to read the first 
part of that: ``The National Archives and Records 
Administration serves American democracy by safeguarding and 
preserving the records of our government.'' I am struggling to 
find through the grant process how you are justifying funding 
some of these programs that are not the records of our 
government, because we can't preserve everything. We can't be 
all things to all people.
    Do you, Ms. Williams, have in your own mind a definition 
that separates the records of our government versus other 
projects that may feel like they are worthy of preservation?
    Ms. Williams. You are asking for a definition that 
separates that or just my----
    Mr. Chaffetz. Well, let me give you an example. Let me give 
you an example. Princeton University, a pretty wealthy 
institution, received $122,848 to process 1,965 linear feet of 
records for the ACLU. I struggle to find the Federal nexus and 
the national imperative to help the ACLU preserve some of its 
records.
    Ms. Williams. Well, maybe it would help if I can suggest 
how this process works, so you have a better understanding.
    Mr. Chaffetz. Let me ask real directly. My time is so 
short, I am sorry. Do you dismiss grant applicants based on--is 
there a litmus test that says ``this is government, this 
isn't?'' ``If you are not government, sorry, you are going to 
scoot over and we are not going to consider it?'' You don't 
dismiss anybody if they are outside government?
    Mr. Ferriero. Can I respond to that?
    Mr. Chaffetz. Yes, sure. Sure.
    Mr. Ferriero. Congress established NHPRC in 1934 to deal 
with the non-Federal records. This was an effort to get the 
National Archives to exert some leadership in the country with 
non-Federal records. It is a grant program focused on States 
and local communities, universities, where there are historical 
records.
    Mr. Chaffetz. You can see, when you look at the mission 
statement, of the overall, what you are trying to accomplish 
for the National Archives. Let me give you another example, and 
help me understand how you can justify in Wilmington, DE, 
Eleutherian Mills-Hagley Foundation, $112,203 to process and 
make available the papers of an interior designer, William 
Pahlmann, a leader in department and specialty store design. 
Can you understand why, with $13 trillion in debt, that a lot 
of people would look at that particular one and say, ``that is 
what they are doing with our Federal dollars?'' How do we 
justify that? Why is that a good program?
    Ms. Williams. Well, if I could go back, again, to kind of 
the process, because we don't sit in Washington and simply, 
based on personal interest or anything else, make these sorts 
of decisions. The grant process is a rigorous one, the review 
process, so we get a pool of applicants every grant cycle from 
all across the country. We----
    Mr. Chaffetz. And roughly how much money is requested 
overall? You give out $10 million, so do you know offhand how 
much was requested?
    Ms. Williams. This past year almost $23 million was 
requested.
    Mr. Chaffetz. So more than 45 percent of the people 
actually get a grant?
    Ms. Williams. About 46 percent received a grant thus far 
this year.
    Mr. Chaffetz. I see my time has expired. I have more 
questions, though. Thank you, Mr. Chairman.
    Mr. Clay. Let me also note for the record that this is the 
process. This bill, H.R. 1556, will only authorize; the money 
will still have to be appropriated. This is the process that we 
use here, and I just want to note that for the record. Also, 
when you talk about records, be they Federal or private 
records, you know, as she mentioned, servitude and emancipation 
records I think are Federal records. The Freedmen's Bureau was 
set up after the Civil War. That was a Federal function. We 
sanctioned slavery in this country. That was a Federal 
function. And they had the great debates around slavery. I 
think it is consistent with us knowing our history that we try 
to preserve those records and try to make that knowledge 
available in a countrywide effort.
    That is my editorial and I will stop here and recognize Mr. 
Jordan for questions.
    Mr. Jordan. I thank the chairman. I am not as familiar with 
the subject matter as the chairman and the ranking member, but 
I have a few questions. If I have enough time, I will yield 
that time to our ranking member.
    Do both of you agree that we are at a point in our Nation 
with our government where we need to reduce spending and begin 
to get a handle on not just your program, but overall the 
budget? Would you both agree with that statement?
    Mr. Ferriero. I agree.
    Ms. Williams. I do.
    Mr. Jordan. And you are familiar with the numbers that the 
ranking member has been talking about, $1.4 trillion deficit, 
$13 trillion national debt? Within a couple years, within 2 
years, we will be paying more than $1 billion a day just on 
interest just to service the debt, and that is even assuming 
that the interest rates stay low, which they are right now, 
relatively low. You are familiar with all those numbers?
    Let me ask a question. I think Congressman Larson, when he 
was talking earlier, talked about the overall budgets for 
Archives, Humanities, and Library of Congress, close to $900 
million, is that right? $874 million. And the charge from the 
administration yesterday was to begin to look at agencies, 
figure out where there is redundancy, potential waste, programs 
that aren't effective. In your judgment, is there any potential 
redundancy with those three budgets? Do you think maybe we can 
find some places where the Archives are doing some of the same 
things that the Library of Congress is doing, the Humanities is 
doing? Do we know that?
    Mr. Ferriero. I think the figure that was cited for the 
Archives was the entire Archives budget, not NHPRC, and the 
NHPRC piece is $10 million. So you are comparing $10 million 
NEH and IMLS.
    Mr. Jordan. I guess my question is broader. Just as an 
expert in this area, do you think that those three, the 
Archives, Library of Congress, and Department of Humanities, do 
you think there are----
    Mr. Ferriero. Duplication?
    Mr. Jordan. Yes.
    Mr. Ferriero. I don't think so.
    Mr. Jordan. You don't think so at all?
    Mr. Ferriero. I don't think so.
    Mr. Jordan. Do you think the taxpayers would accept that, 
just a general statement that you think no duplication?
    Mr. Ferriero. Yes.
    Mr. Jordan. OK.
    Mr. Chaffetz. Would the gentleman yield for a second?
    Mr. Jordan. I would be happy to yield.
    Mr. Chaffetz. Part of the problem here is that one of the 
funding applications that happened in February 2009 was for the 
International Tennis Hall of Fame. How can we do that? And I 
recognize it doesn't come under your direct purview, but how 
can anybody look the American taxpayers in the eye and say, ``I 
know you are struggling, but we have to get money to that 
International Tennis Hall of Fame?'' That is what is so 
infuriating.
    It is not because we are trying to do this for the civil 
rights movement. I would support that. But far from it. The 
Goodwill for a Computer Museum, for goodness sake, to make sure 
that we make an allocation for vintage computers? That is the 
difference. It is not the emotion and the need, the Federal 
nexus for the civil rights movement, it is about the 
International Tennis Foundation, the ACLU, Stanford University, 
Princeton. We are pulling people's money out of their pockets 
and we are giving it to somebody else. That is not the proper 
role of government to be doing this at the Federal level.
    My apologies. I yield back.
    Mr. Jordan. No, no, I thank the gentleman. I think he makes 
a great point.
    Here is, I guess, in kind of a broad context. You know, we 
always look at programs that are important and we understand 
that, but in tough economic times you have to make tough 
decisions. I think an example that comes to mind is our local 
school district. My wife is a part-time teacher there, local 
school district. Two months ago, front page of our local paper, 
they are talking about cutbacks they are going to have to make, 
and I read through the whole thing, and our kids go to that 
school, my wife and I went. We think it is a nice little local 
school.
    But I read through it all, and once you are looking at what 
they are planning to do, the question that came to mind was, 
``well, why in the heck weren't we already doing this?'' And 
that is what we are asking. Go through, make those decisions, 
look at where there potentially is redundancy, potentially 
waste, and make those tough calls. That is what we are asking. 
Not to increase the budget. All kinds of taxpayers, all kinds 
of families, all kinds of small business owners are getting by 
on last year's budget; in many cases something less than last 
year's budget.
    Why in the heck can't government, in particular the Federal 
Government, do the same? And when you couple that with what the 
ranking member has pointed out, some of these grant recipients, 
and where some of these taxpayer dollars are going, I think 
just adds weight to our argument. That is the point we are 
making.
    And, with that, I would yield back my remaining 20 seconds 
to the ranking member or yield back to the chairman. Thanks.
    Mr. Clay. OK. I thank the gentleman for yielding back. Just 
for the record, for my colleagues, the National Endowment for 
the Humanities and the Institute for Museums and Library 
Services do not duplicate any NHPRC programs. That is just for 
your knowledge. They do not duplicate those programs.
    If there are no further questions----
    Mr. Chaffetz. I would like another round, if I could. I 
have the right to do it twice, I believe.
    Mr. Clay. We have two other panels. I am sure you have 
enough ammunition----
    Mr. Chaffetz. I would like to respond, I guess, to----
    Mr. Clay. Well, go ahead and respond.
    Mr. Chaffetz. Again, I am new to this process, I am a 
freshman here, but perhaps that perspective is a good one, 
because I still am struggling to understand why there is not a 
duplication, because I see that the imperative that you put out 
in your mission statement is the preservation of the records of 
our government, and consistently I see that--let me give you 
another example that happened through the NHPRC. The Norman 
Rockwell Museum at Stockbridge, MA, $108,000 to process and 
make available approximately 725 cubic feet of material on 
American artist Norman Rockwell and 20th century American 
artists. I fail to understand why that wouldn't fall under 
Humanities or some other issue.
    Let me give you another one. Stanford University, $111,000-
plus to arrange and describe unprocessed materials from 88 
collections within its archived records, sound of spoken words 
and recordings of music.
    We could keep going on and on, but that is the kind of 
stuff that is infuriating. In times of tough budgets, we have 
to find a way to consolidate and make some cuts. What has been 
on the table is a doubling of a budget. That is why I think you 
see so many people just fired up about this.
    Thanks, Mr. Chairman.
    Mr. Clay. You are welcome, Representative.
    Norman Rockwell, the great American artist, probably 
deserves to have something preserved in our history.
    Let me ask Ms. Williams if you would like to respond to 
anything you have heard.
    Ms. Williams. Well, I think that part of our emphasis at 
the Commission is to invite applications for funding to support 
preservation and access to the Nation's historical records, 
wherever they reside, and a great variety, a great variety of 
records; and I think some of the members of the subcommittee 
have pointed out some that they find perhaps not worthy in 
their eyes.
    I just want to reemphasize that these proposals all go 
through a very rigorous vetting process by peer reviewers, 
State boards, the full Commission, and staff, and that review 
process, I think, brings the heavy weight of analysis to these 
proposals and they are used extensively in making these sorts 
of decisions. So I think it is documenting for us at the 
Commission the American story, which goes beyond Federal 
records. That is the mission of the Commission. It has been its 
mission since it was created in 1934.
    Mr. Clay. Thank you so much.
    At this point, this panel is excused and I would now like 
to invite our second panel of witnesses to come forward.
    Mr. Jordan. The previous witness talked about the review 
process and how extensive it was. Is it accurate to say, 
though, that, in the end, the 15 members of the NHPRC board 
make the final decision? Is that an accurate statement? So, in 
the end, whatever process in place, these 15 people decide who 
gets taxpayer dollars and who doesn't. Is that right?
    Mr. Clay. I would think that the board votes on--I am told 
by staff the Archivist has the final say.
    Mr. Jordan. But in the end it is those 15 people.
    Mr. Clay. I am sure it is recommended to the Archivist by 
the board.
    Mr. Jordan. Thank you.
    Mr. Clay. Thank you.
    I now would like to introduce our second panel. Our first 
witness will be Mr. Michael Beschloss, a historian specializing 
in the U.S. Presidency and American politics. Mr. Beschloss is 
a regular commentator on the PBS News Hour and is the NBC News 
Presidential historian. He is the vice president of the 
Foundation for the National Archives.
    Our next witness is Dr. Steven Hahn of the University of 
Pennsylvania. He is the co-editor of, ``Freedom, A Documentary 
History of Emancipation,'' which benefited from NHPRC funding. 
He is the author of, ``A Nation Under Our Feet: Black Political 
Struggles in the Rural South from Slavery to the Great 
Migration,'' which received a Pulitzer Prize in History for 
2004.
    After Dr. Hahn, we will hear from Ms. Karen Jefferson, head 
of archives and special collections at Atlanta University 
Center. She was a founding member of the Archives and 
Archivists of Color Roundtable. In 2003, she received the 
University of Maryland's James Partridge Outstanding African-
American Information Professional Award.
    Our next witness will be Dr. Ira Berlin of the University 
of Maryland, here today representing the American Historical 
Association. He is the founding editor of the Freedmen and 
Southern Society Project, supported by the NHPRC. His first 
book, ``Slaves Without Masters: The Free Negro in the 
Antebellum South,'' won the best First Book Prize awarded by 
the National Historical Society.
    And our last witness on this panel will be Dr. Pete Daniel, 
retired curator at the National Museum of American History, and 
here today representing the Organization of American 
Historians, of which he is a past president. He is the author 
of, ``Lost Revolutions: The South in the 1950's,'' which won 
the Elliott Rudwick Prize.
    I thank all of our witnesses for appearing today and look 
forward to their testimony.
    It is the policy of the subcommittee to swear in all 
witnesses before they testify. Would you all please stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative, and I ask that each of the witnesses now give a 
brief summary of their testimony, and please limit your summary 
to 5 minutes. Your complete written statement will be included 
in the hearing today.
    Mr. Beschloss, please begin with your opening statement.

  STATEMENTS OF MICHAEL R. BESCHLOSS, PRESIDENTIAL HISTORIAN, 
VICE PRESIDENT, BOARD OF DIRECTORS, FOUNDATION FOR THE NATIONAL 
  ARCHIVES; DR. STEVEN HAHN, ROY F. AND JEANNETTE P. NICHOLS 
    PROFESSOR OF HISTORY, UNIVERSITY OF PENNSYLVANIA; KAREN 
 JEFFERSON, HEAD OF ARCHIVES AND SPECIAL COLLECTIONS, ATLANTA 
  UNIVERSITY CENTER; DR. IRA BERLIN, DISTINGUISHED UNIVERSITY 
 PROFESSOR, UNIVERSITY OF MARYLAND, REPRESENTING THE AMERICAN 
HISTORICAL ASSOCIATION; AND DR. PETE DANIEL, CURATOR, NATIONAL 
     MUSEUM OF AMERICAN HISTORY, RETIRED, REPRESENTING THE 
              ORGANIZATION OF AMERICAN HISTORIANS

               STATEMENT OF MICHAEL R. BESCHLOSS

    Mr. Beschloss. Thank you, Mr. Chairman. I will try to do 
better than the 5. Thank you so much for inviting me and my 
colleagues here this afternoon. Both as a historian and also as 
vice president of the Foundation for the National Archives, I 
am very glad you are holding this hearing.
    As one who appreciates history, Mr. Chairman, you know that 
our founders devoutly hoped to make this country different from 
England and the other monarchies of Europe. One way they wanted 
us to be different was the way we Americans treat our history. 
As you know, the kings and queens of Europe were in favor of 
history, but only official history. Documents and other 
evidence that showed their mistakes were suppressed or 
destroyed.
    And when the founders began to work on what the United 
States should be, they knew all of that and, unlike the 
Europeans, they felt that, for a country's political system, 
history should be treated not as a dangerous threat to be 
harnessed, but as a mighty force that could make the country 
better. Our early leaders felt that only if we knew our full 
history could we really know how and why our past leaders and 
citizens succeeded, and also how and why they failed.
    And I think you can say that from the beginning those 
founders practiced what they preached. If you go back to the 
closed door debates of the Constitutional Convention of 1787, 
you will find the most detailed accounts of what they said and 
did; there are letters, there are transcripts, there are 
diaries, there are notes. Over two centuries later, we can hear 
those actual voices, and they speak to us. We are using those 
records even still to argue about those constitutional debates 
and how our society in 2010 compares to the early expectations.
    I think it is not too much to say that if the founders came 
back today, they would love the fact that we Americans have 
created an NHPRC. I think they would feel there is no more 
patriotic act than creating historical records, preserving 
them, and then making them available as quickly as possible to 
the widest number of Americans. And I think they would also 
love the fact that the NHPRC is not just concerned with the 
great and famous; it has shown itself just as eager to preserve 
and publish the letters of Swedish immigrants, for instance, in 
my home State of Illinois, as the letters of President John 
Adams and his cabinet.
    I think the NHPRC's work is now more important than it ever 
has been. Unlike earlier generations of Americans, we in 2010 
don't tend to write many letters or diaries, and not too many 
of us pour our innermost thoughts and emotions into an email. 
So I think it couldn't be more vital for the NHPRC to do 
everything it can to encourage the creation of some kind of 
detailed historical record.
    Let me offer a quick example from my own professional 
experience. I have been working since 1994 on several books in 
which I transcribe, edit, and try to explain the tapes that 
President Lyndon Johnson made of 10,000 of his private 
conversations on the telephone in the Oval Office and elsewhere 
while he was President. Until the Johnson tapes began to be 
opened in 1994, almost no one knew that LBJ had secretly taped 
people he talked to without their knowledge, including his 
wife, by the way, which I would not recommend for any marriage, 
but she took it with some good humor. In retrospect, it is 
probably terrible that Johnson didn't tell his friends that he 
was taping them, but it is an inexhaustible treasure for the 
American people.
    Some of President Johnson's language on those tapes, I am 
afraid, is not fit for me to repeat in this hearing, but one 
lesson which is on them, which I will close with, is something 
I don't think the chairman or any member of this subcommittee 
will disagree with, and that is this: Presidents should listen 
to Members of Congress. Not a bad thought. May 1964, LBJ was 
talking to his old mentor, Senator Richard Russell of Georgia, 
about whether to go to war in Vietnam. Russell was Mr. Defense, 
but thought Vietnam was a loser. And on these tapes he tells 
Johnson, ``Vietnam is a tragic situation; it is just one of 
those places where you can't win. It will be the most expensive 
venture this country ever went into.'' He was absolutely right.
    How different the history of our country could have been 
had LBJ not rejected Russell's wise advise. I think that one 
conversation between a single President and a single powerful 
Senator is just one of the cautionary lessons that are crucial, 
I think, for later American Presidents and also for all of us 
citizens. And I think if it weren't for the kind of work so 
well championed by the NHPRC, we wouldn't even know that 
conversation took place.
    [The prepared statement of Mr. Beschloss follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you, Mr. Beschloss, for that brief history 
lesson. And I am so glad you sanitized President Johnson's 
language.
    Dr. Hahn, you are up.

                  STATEMENT OF DR. STEVEN HAHN

    Dr. Hahn. Thank you. Chairman Clay, Ranking Member 
Chaffetz, Congressman Jordan, my name is Steven Hahn and I am a 
professor of history at the University of Pennsylvania, and I 
am very pleased to have the opportunity of coming before this 
committee today to speak in support of the authorization of an 
increased funding for the NHPRC.
    I have been, as Chairman Clay suggested, a direct 
beneficiary of the resources that the NHPRC has made available, 
and I have seen the many ways in which projects that the 
Commission has supported benefit historical learning and 
understanding in the United States.
    Early in my career, I worked as an associate editor at the 
Freedom History Project at the University of Maryland, the 
project that had been supported by the NHPRC. At the time, I 
was a newly minted Ph.D. and very excited about the work that 
the Freedom History Project was doing: assembling a multi-
volume documentary history of slave emancipation in the United 
States using the records deposited at the National Archives.
    Most editorial projects, then and since, have focused on 
very well known, nationally significant and powerful figures 
and institutions. The Freedom History Project, by contrast, was 
uncovering the experiences of both the powerful and powerless, 
of policymakers and bureaucrats, of ordinary soldiers and 
slaves who were bringing about the destruction of slavery and 
the construction of a free society in the largest emancipation 
the world had ever seen. And, I might add, also the best 
documented one.
    Owing to the documents that I had the opportunity to read, 
compile, and annotate during my year as an associate editor on 
the Project, I became increasingly interested in African-
American politics in the rural south. The material that I was 
using raised intriguing questions both about what former slaves 
were doing in their first years of freedom and about where 
their sensibilities and practices came from.
    When I left the Project to take up a post in the History 
Department at the University of California-San Diego, I decided 
to pursue some of the questions and to write a book about what 
I found. That book, ``A Nation Under Our Feet: Black Political 
Struggles in the Rural South from Slavery to the Great 
Migration,'' which I began to formulate while I was working at 
the Freedom History Project, was eventually published by 
Harvard University Press and was awarded the 2004 Pulitzer 
Prize in History.
    Now, over the years that the NHPRC has supported the 
Freedom History Project, numerous historians like myself have 
had the opportunity to find work in this rich intellectual 
environment, to develop our skills as researchers and writers, 
and subsequently, in no small measure, owing to our experience 
at the Freedom History Project, have been hired into full-time 
positions at a range of colleges and universities and have 
produced scholarship of genuine importance. Former editors now 
hold professorships at 15 different institutions of higher 
education across the United States; they have won major prizes 
for their work; they have become MacArthur Foundation fellows; 
they have served on State humanities councils; and they have 
been elected, as Professors Berlin and Daniel have, president 
of the Organization of American Historians.
    But the impact of the NHPRC goes well beyond academic 
employment and published scholarship. It nourishes the 
educations and intellectual appetites of students and other 
learners at all levels of American society. In the time since I 
worked at the Freedom History Project, I have used the Project 
documents and essays in my lecture courses and seminars at the 
University of Pennsylvania and elsewhere.
    I have also brought them into many public school teacher 
workshops I have participated in in those years. The teachers, 
in turn, have brought the documents and other related materials 
into their junior and senior high school classrooms, and have 
stimulated interest in our past and an exciting sense of 
discovery among their students. And I used the Project 
materials extensively when I taught college level courses for 
economically disadvantaged adults in North Chicago, in what is 
known as the Odyssey Program, earlier in the past decade.
    The reach of the NHPRC has been enormous and the benefits 
that have derived from its resources are greater still. At a 
time when the connections between past and present are very 
much a part of public consciousness and the political 
discourse, we need to promote the type of work that can make 
the past and our many pasts come alive for all Americans. The 
NHPRC has already made an invaluable contribution toward that 
end, and I would urge you to authorize the level of funding 
that will allow the Commission not only to continue, but also 
to expand its important undertakings.
    Thank you for the opportunity to testify, and I would be 
happy to answer any of your questions.
    [The prepared statement of Dr. Hahn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you for your testimony, Dr. Hahn, and thank 
you for your important work in preserving American history.
    Ms. Jefferson, you are recognized for 5 minutes.

                  STATEMENT OF KAREN JEFFERSON

    Ms. Jefferson. Chairman Clay and members of the 
subcommittee, thank you for allowing me to testify to you today 
about the NHPRC. I am representing my library, who has 
benefited from the support of NHPRC through our State 
Humanities Board, and I am going to talk about how we benefited 
in that way.
    First of all, I want to say that the archival profession 
greatly is appreciative of the work of the NHPRC, and that 
extends to our State Records Historical Advisory Boards that 
impacts us the most, and I am going to talk about Georgia's 
Historical Records Advisory Board and the work that it does and 
how it benefits us directly.
    First of all, we have a wonderful directory, GHRAB is what 
we call our historical board, and this directory is an online 
directory of over 600 different organizations in the State of 
Georgia so that we know who we are, who is collecting the 
history, who is preserving the history; and also so that the 
citizens, our educators, our students, and our researchers will 
know how to find out where the records are in Georgia.
    The grants program, of course, or the re-grants program 
that is done by GHRAB through funding from NHPRC has been very 
helpful. Our institution has received a small grant, as has our 
sister institution, Spelman College Archives, to help us do our 
work. A lot of those awards are very small, they are $2,000 to 
maybe $15,000, but they are vital to the work that we do. They 
are covering programs that deal with startup funds to help you 
begin your archives, to help you improve the work that your 
archives is doing.
    In particular, it funds educational opportunities. And, as 
archivists, we have to stay abreast of what are the best 
practices and the standards so that we can preserve the 
records, and these educational opportunities through our State 
Historical Advisory Boards are brought to the State and made 
more accessible, and they are less expensive because we don't 
have to travel and spend extra money to go outside to learn 
about changes and developments that we should use in our work.
    This is particularly important because we are now doing a 
lot of workshops related to managing electronic records and 
digitizing historical materials, and we are also doing planning 
around disaster preparedness, because we have to be prepared to 
recover from when we have disasters.
    But, in particular, I want to mention the work that we are 
doing today related to managing electronic records because even 
today, at this hearing, all of the testimonies that we have 
done have been prepared by computers. The hearing that we are 
having right now is being recorded electronically, and the 
technology is changing very quickly.
    How are we going to make sure that the records that we are 
generating today, like the record we are having right now, is 
going to be accessible to the future? We have to make sure that 
the practitioners have the training to do it, that we keep 
abreast of being able to care for these kinds of historical 
records; they are no longer just going to be paper. Also, our 
citizens are increasingly wanting only access to the records 
electronically, so they no longer are simply wanting to look at 
the paper document; they want to be able to search it, they 
want to be able to see it online.
    I also want to mention what is important for us is the job 
opportunities that these grant projects fund, and I want to 
talk about how they actually help new archivists come into the 
field, because when you finish your program as in a master's 
program of archival administration, you don't always have the 
experience that you need to get a job, and these grant programs 
are where we hire folks and they have an opportunity to work 
for 1 to 3 years and get the experience so that, when they do 
apply for professional jobs, that they will have experience. 
Entry level positions often require that you have 1 to 3 years 
of experience. Where will you get it?
    These programs also open up the career opportunity for 
archives and records management to students, so we hire a lot 
of students in these grant programs. And I know from my 
institution right now we have hired four students who have gone 
on to get their professional degrees. Two are in school right 
now; one is going to pursue the degree in the fall; and we have 
another who just completed their work and is now working at the 
National Archives. So this is the kind of programs that put 
people to work, so I think it is very important.
    I just want to say that what happens in Georgia is 
happening across the country in different SHRABs, as we call 
them, and I don't think that we can devalue or should devalue 
the work that is being done in terms of keeping our historical 
records available.
    I want to say that if we want to have an informed 
citizenry, if we want our citizens to be proud Americans and 
understand what it means to be Americans, they have to have 
access to the records; they have to know that story. So I think 
that what we do is very important to what we will do in the 
future. Thank you.
    [The prepared statement of Ms. Jefferson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you so much, Ms. Jefferson.
    Dr. Berlin, you may proceed for 5 minutes.

                  STATEMENT OF DR. IRA BERLIN

    Dr. Berlin. Chairman Clay, Ranking Member Chaffetz, 
Westmoreland, Jordan, my name is Ira Berlin. I teach at the 
University of Maryland, where I am a professor of history and 
also a university professor. I am also a member of the American 
Historical Association, the oldest and largest organization of 
American historians, and I am here today representing that 
organization.
    I am most pleased to have the opportunity to testify before 
this committee on the reauthorization of the NHPRC with a 
budget of $20 million and to urge an increase in the funding of 
that agency even at this moment, because I believe that it is 
critical to the American people's understanding of the past, 
which in turn is essential to our democracy. I can think of 
nothing which is more essential at this particular moment.
    The National Historical Publications and Records Commission 
is the seed bed of contemporary understandings of American 
history. During the last 60 or more years, the NHPRC, more than 
any other single entity, governmental or private--and I should 
say I have sat on the National Council of the National NEH--has 
made it possible for the American people to know their history, 
and that history speaks to the entirety of the American 
experience; workers as well as bosses, slaves as well as 
slaveholders, women as well as men, even tennis players, I 
presume, in short, we have built and protected and to defend 
our great republic precisely those people.
    You have already heard accountings of the extraordinary 
records of the NHPRC in creating archival collections in every 
State and territory in the United States, and the magnificent 
documentary volumes, the microfilms, the CDs these have 
spawned. We are talking literally of miles of records and 
thousands of volumes. Rather than repeat that accounting, I 
would like to talk a little bit about my own experience as the 
founding director of the Freedmen and Southern Society project, 
that collaborative study of the transit of black people from 
slavery to freedom, the beginning of the Civil War in 1861 to 
the beginning of radical reconstruction in 1867, which has been 
published in a multi-volume edition under the title of Freedom.
    We are talking of a revolutionary moment, a people who go 
from being property, something like the chair I am sitting on, 
to being men and women, free men and women, and then soldiers 
in the world's most powerful army, and then citizens of this 
great republic, and then officeholders in that great republic. 
That happens in 6 years. And if that happens in 6 years, 
imagine what could happen in 10 years; imagine what could 
happen in a lifetime. People get a sense that they can 
transform the world. It seems to me that this is essential to 
being a citizen of a democracy, particularly this democracy.
    In transforming this understanding of emancipation and 
putting slaves at the very center of this story, the Freedom 
volumes have been called this generation's most significant 
encounter with the American past, what the Washington Post 
declared one of the great monuments to contemporary 
scholarship. Of course, I am very proud of this, but I am even 
more proud of seeing the Freedmen and Southern Society project 
become a school for young scholars who are now teaching in our 
great universities, in our community colleges, in our high 
schools. Of those people, winning prizes and those prize-
winning projects being passed on to their students.
    It is not simply a matter of creating new careers and 
creating jobs, but the Freedmen and Southern Society project 
and the work that is created by that project, which is founded 
on those NHPRC grants, have found their way into high schools 
and schools everywhere; they have taught hundreds and 
thousands, perhaps hundreds of thousands of students; they have 
given people a new sense of the American past, a sense of the 
American past where, in the past, people have controlled their 
own destiny, and in some ways that empowers them to believe 
that they themselves can control their own destiny. That is 
what democracy is all about and that is what history should do, 
and that is what the NHPRC has done.
    Thank you so much.
    [The prepared statement of Dr. Berlin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you, Dr. Berlin, for your testimony and the 
wonderful work you have done on our country's history. 
Appreciate it.
    Dr. Berlin. Thank you.
    Mr. Clay. Dr. Daniel, you are batting cleanup.

                  STATEMENT OF DR. PETE DANIEL

    Dr. Daniel. Thank you, Chairman Clay and other members of 
the subcommittee, for the privilege of testifying in support of 
reauthorization of the National Historical Publications and 
Records Commission. As a past president of the Organization of 
American Historians [OAH], I am representing its 9,000 members, 
to include academic historians, K-12 teachers, public 
historians, and anyone interested in the history of the United 
States. The OAH publishes the Journal of American History and 
the OAH Magazine of History, and is vitally involved in the 
country's intellectual history.
    The NHPRC provided critical support to the Booker T. 
Washington Papers Project that began in 1967 and that concluded 
in 1989 with a cumulative index of the 13 volumes of documents. 
As a graduate student at the University of Maryland, I worked 
with Louis Harlan on this project from its beginning until I 
graduated with a Ph.D. in 1970 and left as the Project's 
assistant editor.
    The first volume of letters included this notation in the 
acknowledgments: The National Historical Publications 
Commission--Records was added later--for its part in initiating 
the Booker T. Washington Papers, its assignment of two fellows 
in advanced editing of documentary sources in U.S. history to 
the project, and several grants-in-aid.
    I should add here that the diversity of these papers is 
just amazing. Booker T. Washington communicated with primarily 
Republican politicians. He was a very powerful Republican 
politician in his own right, recommended white people in the 
south for office. He communicated with philanthropists, 
teachers, farmers, Black and White people, rich and poor, men 
and women, and even with people in Liberia, where he sent some 
of his people trained at Tuskegee to teach people in Liberia 
how to farm the southern way.
    One of the fellows for advanced editing of documentary 
sources, the late Stuart Kaufman, went on to found and edit the 
Samuel Gompers project, now in the process of publishing its 
final volume.
    These projects have not only made available important 
documentation on two outstanding leaders, but also trained 
dozens of graduate students to evaluate documents, identify 
sometimes obscure people and events, and learn the craft of 
documentary editing.
    The flourishing digital environment today is quite 
different from the card files used to track our documentation 
on the Washington papers in the late 1960's. In some instances, 
however, what we call progress bites back with unintended 
consequences. The microfilm editions so popular in the 1960's 
through the 1980's, for example, are barely useable today 
because computers are replacing microfilm and microfiche 
readers. There is a major opportunity to digitalize microfilm 
editions and make such collections widely available online. In 
addition, documents generated on early computer software are 
often unreadable as programs roll over and become obsolete with 
alarming frequency.
    The NHPRC is taking the lead in making digital editions of 
the papers of the founding fathers available. But to 
incorporate the diversity of the American experience, 
historical documentation needs a wider Web presence. Amid all 
the Web chatter, it is imperative that researchers find ample 
documentary sources that provide a factual basis for 
scholarship.
    The genius of this country lies in its diversity, and 
preserving the records that fully document all citizens should 
be an important priority. The OAH enthusiastically supports the 
reauthorization of the National Historical Publications and 
Records Commission not only because it has helped to train 
editors and graduate students and made available documentation 
of important people and events, but also because it has 
supported local records projects and, most important, helped 
preserve our documentary heritage.
    Thank you.
    [The prepared statement of Dr. Daniel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Clay. Thank you very much, Dr. Daniel.
    We will now go to the question and answer session. I have a 
question for the entire panel, and let me start it off with Mr. 
Beschloss. Would you agree that it is difficult to quantify the 
benefits the public gains from NHPRC? You cite instances where 
research originated with NHPRC grant passes through our full 
educational system, from universities to elementary schools. 
When you combine the value of these educational gems that come 
from NHPRC along with the jobs created by the NHPRC, it is easy 
to see these ancillary benefits, wouldn't you agree? And I will 
start here and we can go through the table.
    Mr. Beschloss. I would. And I think the other thing is 
that, you know, this is part of the core mission of the United 
States, and that is to make sure that these things are gathered 
and preserved and disseminated, not just Federal Government 
archives in Washington, but, as I was saying, the Swedish 
immigrants or African-Americans in North Carolina or Native 
Americans in New Mexico. That was the intention of this. And 
the problem is that if you stopped it for a few years, there is 
a lot of that would be lost; you can never reclaim it.
    Mr. Clay. Dr. Hahn.
    Dr. Hahn. Yes, thank you. I think the ripple effects of the 
NHPRC funding are enormous and, as you suggested, would be very 
difficult to lay out in the short time we have. I would just 
say that one of the things that I have learned, especially 
working with public school teachers who are trying very, very 
hard to interest their students in the past, have found, like 
many of us who teach in colleges and universities have found, 
that the use of documentary sources are not only exciting to 
the students, but make history come alive to them and make it 
clear that they can engage like we do in the process of 
discovery.
    So when I have gone and worked with teachers, and I bring 
this material with me, they are very, very excited about it and 
the more access that they have to this kind of material, the 
more innovations they can bring to the classroom and 
accomplish, I think, some of the things that Professor Berlin 
said so powerfully before.
    Mr. Clay. Thank you for your response.
    Ms. Jefferson.
    Ms. Jefferson. I think that the support that we get from 
NHPRC provides jobs. And when you talk about cutting jobs from 
people, you are putting people out of work, and then they can't 
participate and give back. To give more money, that helps us 
all. So I think you get into a cycle there. I don't see where 
you can see cutting out a program and putting people out of 
work, people in the humanities, and you are going to retool 
them to then do what? So I think it is very important that we 
keep these kinds of opportunities open.
    Mr. Clay. Dr. Berlin, would you agree that there are some 
ancillary benefits?
    Dr. Berlin. Yes, I would certainly agree with everything 
that my colleagues here on the panel have said. I would also 
think of the NHPRC and the money that has been given to it over 
the years as an enormous investment that we have made, that we 
continue to draw upon. In some ways it is different than the 
question of employment and livelihood. We have created a bank 
of knowledge which has transformed our understanding of the 
past and transformed our pedagogy, the way we teach, as well, 
and that transformation is ongoing because each of those 
projects have added something to it, changed that debate, 
enlarged the debate. That is what makes students excited about 
the past.
    Mr. Clay. Thank you.
    Dr. Daniel, is it difficult to quantify the benefits of the 
NHPRC?
    Dr. Daniel. Yes, I think it is impossible to quantify. And 
echoing what Dr. Berlin said, the impact of these sources is 
enormous. Children who have never seen a primary document, when 
they are reading what a person wrote coming out of slavery or 
reading what someone wrote to Booker T. Washington or what he 
wrote, it is not mediated by a historian; this is the real word 
that was done at the time, it is a primary source. And students 
love that because then they can figure out what the past was 
about.
    So quantifying the impact of these records that NHPRC has 
preserved is impossible. We don't know how far it goes. It goes 
to foreign countries where people read about our documentary 
heritage. It is a big impact.
    Mr. Clay. Thank you all for your responses. Let me also 
state for the record that the NHPRC never funded the 
International Tennis Hall of Fame. NHPRC turned it down. The 
NEH funded it, but the NHPRC never funded the International 
Tennis Hall of Fame. That is for the record.
    Mr. Chaffetz, you are recognized for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    And thank you all for the great work that you have done. 
Our country is better because of the work that you have done. I 
believe, at least, personally, that the work needs to continue. 
But I will start with Mr. Beschloss here. If we are going to 
follow what President Obama's chief of staff and budget 
director have asked for and we are going to have to make a cut, 
what are we going to cut? I mean, looking at the Archives, you 
are the vice president of the Board of Directors Foundation for 
the National Archives, what would you cut?
    Mr. Beschloss. That is slightly above my pay grade; that is 
what you all are here to do. I guess it is rare in Washington 
when someone says they don't know, but that is not my----
    Mr. Chaffetz. Fair enough. Fair enough. I appreciate the 
candor.
    Mr. Beschloss. That is not my perspective. All I can say 
is----
    Mr. Chaffetz. I will give you a list, by the way.
    Mr. Beschloss. Pardon?
    Mr. Chaffetz. I can give you a list.
    Mr. Beschloss. OK. All I can say is that let's say you 
decided to stop this for 5 years. There are a lot of things 
that we have all been talking about this afternoon that would 
disappear forever. You can't get them back.
    Mr. Chaffetz. Let me tell you. I have not heard any person 
ever suggest that we would totally stop funding the entire 
archive program.
    Mr. Beschloss. Sure. No, I am just using as a point of 
comparison.
    Mr. Chaffetz. I know. And just as clarification, my point 
is we have hundreds of millions of dollars that will still be 
allocated to this, and I support that. But we are trying to 
trim the budget. We are trying to make some tough decisions.
    Dr. Hahn, you are very accomplished; you are very well 
published. I mean, just trying to read through your CV, which 
we just got, would take a long period of time, and your career 
has been very accomplished. I need to ask you, though, it says 
on the Truth in Testimony disclosure, ``please list any Federal 
grants or contracts, including sub-grants and sub-contracts, 
that you have received since October 1, 2006.'' Are you saying 
you haven't received any? None? Nothing?
    Dr. Hahn. No.
    Mr. Chaffetz. My understanding is that the University of 
Pennsylvania has received some $518,000 worth of grants through 
the NHPRC.
    Dr. Hahn. Well, it didn't come to me.
    Mr. Chaffetz. Dr. Berlin, let me ask you the same question. 
Please list any Federal grants or contracts, including sub-
grants or sub-contracts, that you received since October 1, 
2006.
    Dr. Berlin. Not a nickel.
    Mr. Chaffetz. My understanding is the total funding for the 
American Historical Association is $536,863, and that you are 
here representing the American Historical Association. Why the 
discrepancy?
    Dr. Berlin. They haven't given me a nickel. It is 
outrageous.
    Mr. Clay. Would you please turn on your mic?
    Dr. Berlin. I have received no money from the Federal 
Government from a grant or as a member of the American 
Historical Association. I have not participated in a project 
that I know which has been funded by the Federal Government. 
The American Historical Association and the University of 
Maryland, particularly the latter, are particularly big 
entities; they get a lot of money from the Federal Government. 
They do all kinds of contract work. We have the largest physics 
department in the world. Unfortunately, very little of it has 
come to me and nothing has come to me since 2006.
    Mr. Chaffetz. You are also supposed to list if the American 
Historical Association has received anything. You're saying 
that the American Historical Association has received no money?
    Dr. Berlin. I have received no money.
    Mr. Chaffetz. Well, I beg you to go back and look at your 
form, because what you signed 2 days ago says that the American 
Historical Association has received no money. We think you have 
received over $500,000 through that Association.
    And I would also ask, Dr. Hahn, if you would go back and 
review that form, please.
    Mr. Clay. But, Mr. Chaffetz, I am not sure he is speaking 
for the Association.
    Mr. Chaffetz. It says he is. No. 4, ``other than yourself, 
are you testifying on behalf of any non-governmental entity?'' 
``Yes, the American Historical Association.''
    Mr. Clay. I invited him as a professor from the University 
of Maryland.
    Dr. Berlin. Yes.
    Mr. Chaffetz. It also says on the document that you 
provided, Mr. Chairman, representing the American Historical 
Association.
    Dr. Berlin. I am representing the American Historical 
Association here today----
    Mr. Chaffetz. The American Historical Association received 
over $500,000 and you don't know that?
    Dr. Berlin. I do not know that. And I couldn't tell you 
what they received it for, nor do I think I am responsible for 
the grants that the American Historical Association. I was 
asked to come here to speak on the American Historical 
Association's position on the National Historical Records 
Commission. I have done that. I have done that to the best of 
my ability. I have done that with great honesty.
    I am not an employee of the American Historical 
Association, I am a member of that Association, with some 
20,000 other people who are interested in history. So I don't 
think that is my responsibility.
    Mr. Chaffetz. What I am asking for is that you go back and 
look at that document, because I think you will find that you 
were supposed to, as a representative of the American 
Historical Association, present to us in the Congress so we 
have time to review it, and we did not get it in advance, so 
that we understand. That is why the Congress created the Truth 
in Testimony. And I feel that it is incomplete.
    Mr. Chaffetz. The gentleman's time has expired.
    The gentleman from Ohio.
    Mr. Jordan. Quick question. Mr. Berlin, did you consult 
with the American Historical Association prior to filling out 
the form?
    Mr. Clay. Mr. Jordan. I am sorry. I am sorry.
    Let me recognize the gentleman from Ohio, Mr. Driehaus, for 
5 minutes.
    Mr. Driehaus. Thank you, Mr. Chairman.
    I want to thank the panel for being here. It is certainly 
not my intent to impugn your integrity. I think you are all 
here representing interests and you do have a body of work and 
dedication to historical archives and record keeping that are 
tremendous.
    I would like to followup on the chairman's inquiry as to 
the value of this relatively small investment into cultural 
preservation and historical preservation, and if we could just 
go down the row. I mentioned earlier I am from Cincinnati, OH. 
We have the Underground Railroad Freedom Center, which has been 
tremendous not just for educating people as to the everyday 
issues of freedom that we experience globally today, but also 
the history of the Underground Railroad and the extent that 
slavery impacted the south and the north and the impact the 
Ohio River played and so many places along the river played.
    But it has also been tremendously beneficial to us 
culturally, economically, and from an educational perspective 
the students from all over the region are now better informed 
when informed when it comes to issues of freedom because of 
that institution. I think those investments are good 
investments.
    So I would like you to talk about any examples you might 
have of investments made that you are familiar with and the 
benefits, the compound benefits that you might see in those 
investments.
    Mr. Beschloss. Well, I would say, in a general way, Mr. 
Driehaus, I think an American is a better citizen if he or she 
knows history, and we are in a time when more and more 
Americans know less and less about history. So I would say for 
a relatively modest investment this would mean the Federal 
Government is saying not only do we feel that it is important 
for Americans to know history and also use primary sources, but 
also that history and primary documents are not just those that 
are sitting in Washington; just as important, sometimes more 
so, are collections and other historical evidence that can be 
very far from here.
    Mr. Driehaus. Just to followup, having served as a board 
member of a local historical society and working very closely 
as a State legislator with the Ohio Historical Society, I am 
very familiar with the difficulty these small organizations 
have in preserving local history, and I think you are 
absolutely right. While we have a tremendous resource in the 
Archives and the Library of Congress to protect so many of our 
national documents, when it comes to communities and when it 
comes to State history and the impact that history has made, 
preserving those documents is extremely difficult, and becoming 
more and more difficult as resources are cut. Would you not 
agree?
    Mr. Beschloss. I would, and I would say something else, 
too. I am all for costs being borne as much by the private 
sector as possible, and this is something that does that, 
because if you reauthorize in a strong way the NHPRC, you are 
making the statement to local communities we think that this is 
important as a country. That will bring, and I am sure you saw 
this in your own experience, people who are local to say, 
``well, maybe this is something I should contribute to 
myself.''
    Dr. Hahn. Yes, thank you. Well, your question is very large 
in many respects, but let me just say a couple things briefly. 
One thing is that, and I speak to the question of jobs that the 
projects that the NHPRC funds make possible, you know, we are 
at a very, very difficult time in this country, not simply 
because the general problems that the economic crisis has 
posed, but certainly for those people who are interested in 
their past, in the intellectual life of their country, and the 
possibility of going on and becoming academics and writers and 
teachers, we are in jeopardy of potentially losing an entire 
generation because there is no work for them. The NHPRC, most 
of the money goes to pay salaries and has been enormously 
important, even in the time that I have seen it, even when 
times were better economically and making it possible for 
historians to sort of find their footing.
    The other thing I would just like to say is that one of the 
things I have seen, too, with the use of documents and the kind 
of documentary collections that the NHPRC makes possible is 
what it means for students to read about and understand how the 
most ordinary of people at different times in our past have 
been able to act in ways that really make a difference in their 
lives and in the lives of their communities. It is not 
something that you can simply get up and tell them about, it is 
something that they can see by using the materials. And I think 
there is no way to measure the kind of consequences and 
excitement and possibilities that experience opens up.
    Ms. Jefferson. Again, I just want to speak to how important 
it is for the practitioners, for the archivists and the records 
managers, and how the support comes through the State so that 
we can get the training to do the work that we need to do; that 
we can get funding for some of the small projects; that we can 
get startup money so that we do have archivists and 
professional people to care for some of the local records.
    There are a lot of areas that do not have professionals to 
take care of the materials, and that is where we get the 
funding for these small kinds of projects on a local level and 
we get the training so that we know how to deal with electronic 
records so we know how to respond in disaster recovery. These 
kinds of projects really are important and vital to our 
community as we work to preserve our records, so I can't stress 
it enough.
    Mr. Clay. The gentleman's time has expired.
    Mr. Driehaus. Thank you.
    Mr. Clay. You are welcome.
    The gentleman from Georgia is recognized.
    Mr. Westmoreland. I want to thank the chairman.
    Let me say, too, I appreciate all the work that you do and 
the fact that you are keeping part of history not only for us, 
but for our families and generations to come.
    Dr. Hahn, I did want to ask you. You made a comment a while 
ago that you had received no Federal funding, and as my 
colleague, Mr. Chaffetz, had said, I looked at your 
accomplishments and they are quite a lot. How did you do that, 
how did you accomplish all the things that you have? Where did 
you get the resources and where did that money come from?
    Dr. Hahn. Well, I teach at the University and I have taught 
at a number of universities. I have applied for and I have 
received grants from non-governmental agencies to advance my 
research, and I am spending my own money in whatever way I 
could to make my trips to archives that I have organized 
records and made them available to me so that I could do that.
    Mr. Westmoreland. So there are other grants out there other 
than the grants coming from the Federal Government.
    Dr. Hahn. Well, there are all sorts of grants. I mean, I 
applied to granting agencies for individual scholarly grants, 
exactly.
    Mr. Westmoreland. What would you say the total sum of all 
the work that you have done? Could you put a price tag on that? 
I know that would be awfully hard for you.
    Dr. Hahn. Well, it is priceless.
    Mr. Westmoreland. I understand. I understand. And I am sure 
it is, but is there any--so it is priceless. I mean, you 
couldn't even put a value on it, really?
    Dr. Hahn. I think the time and energy that most people like 
myself, and academics in general, I mean, we are on our own 
bill for the most part and it is a tremendous burden.
    Mr. Westmoreland. Yes, but, as the American way, you got it 
done without the Federal Government, right?
    Dr. Hahn. Certainly since 2006.
    Mr. Westmoreland. Sir?
    Dr. Hahn. Yes, since 2006.
    Mr. Westmoreland. Since 2006?
    Dr. Hahn. Right.
    Mr. Westmoreland. And, Dr. Berlin, you said the same thing, 
that you had not received any----
    Dr. Berlin. Not since 2006.
    Mr. Westmoreland. Not since 2006.
    Dr. Berlin. Right.
    Mr. Westmoreland. So you had prior.
    Dr. Berlin. But let me say----
    Mr. Westmoreland. So both of you had received money prior 
to 2006.
    Dr. Berlin. I am deeply indebted to the Federal Government 
for my own position and for the scholarship I created. Probably 
the largest debt, in point of fact, is to the NHPRC. I am 
pleased to acknowledge it. I came to the NHPRC with an idea, an 
idea that we could write a documentary history of emancipation, 
that we could tell the story of how this country goes from 
being a free country, being a slave country----
    Mr. Westmoreland. I understand.
    Dr. Berlin. They supported that. They supported that and 
they continue to support that even though I am not involved in 
that.
    Mr. Westmoreland. I understand.
    Dr. Berlin. So my own career in some ways rests upon those 
Federal grants.
    Mr. Westmoreland. I understand. But you have done things 
without Federal grants.
    Dr. Berlin. I have done things without Federal grants.
    Mr. Westmoreland. OK. So things can be done without getting 
grants from the Federal Government that would preserve history.
    Dr. Berlin. Certainly many things can be done and many 
things have been done. What I would stress to you is that this 
project, I am confident, could not be done.
    Mr. Westmoreland. I understand.
    Dr. Berlin. OK.
    Mr. Westmoreland. Now, let me just ask one other question, 
and I apologize for not being here earlier, and this may have 
already been answered, but if you look at the National 
Historical Publications and Records Commission, the National 
Archives and Records Administration, National Endowment for the 
Humanities, and the Institute of Museum and Library Services, 
do you see any duplication there of anything that is being 
done? Because I have read of some of the grants that have come 
out of the history, and it looks like some of that could be 
money that should come out of the arts or the museum or the 
libraries. Do you see any duplication whatsoever in these 
agencies? And when you apply for a grant, do you apply to all 
or would someone applying for a grant--and any of you jump in 
on this--would you apply to all of them or just one in 
particular?
    Dr. Berlin. Would you like me to?
    Mr. Westmoreland. You are fine. Yes, sir.
    Dr. Berlin. OK. Let me talk to what I know, and I know 
about two of those agencies that you have mentioned, the NHPRC 
and the NEH, the National Endowment for the Humanities, because 
I sat on the National Council for the National Endowment for 
the Humanities under President Clinton and under President 
Bush. So I know something about those two agencies.
    I would say if we took the two and we looked for 
coincidences, we look for places of overlap, we would find 
very, very small areas of overlap. There would be some areas in 
which there would be absolutely no overlap, that is the grants 
to archival agencies. There might be some areas in which there 
was some overlap in various publication projects, but I would 
say that they were very, very small and----
    Mr. Westmoreland. OK, but let me ask you a question. But if 
you were applying for a grant, would you apply to all four of 
these or one in particular?
    Dr. Berlin. There were several of those agencies which I 
wouldn't apply to at all for certain. So if I was looking for a 
grant to write my history of emancipation, I wouldn't apply to 
the museum. There would be no point in that.
    Mr. Clay. The gentleman's time has expired. The gentleman's 
time has expired.
    The gentleman from Ohio.
    Mr. Jordan. First, I just want to followup, Dr. Berlin, if 
I could, on where Ranking Member Chaffetz was. Did you consult 
with the American Historical Association and ask them about any 
grant dollars they had received prior to filling out your form 
and signing it that you had received no money?
    Dr. Berlin. No. Sounds like I should have, but I did not.
    Mr. Jordan. So would you then say what you submitted to 
this committee of the U.S. Congress is inaccurate, where you 
said, on question 8, that you received no money or 
organizations you were representing, even though you said on 
No. 4 you were representing the American Historical 
Association?
    Dr. Berlin. The way I----
    Mr. Jordan. Would you say the statement you submitted to 
Congress and signed was inaccurate?
    Dr. Berlin. No.
    Mr. Jordan. You think it is accurate?
    Dr. Berlin. The way I interpreted it, yes, it is absolutely 
accurate.
    Mr. Jordan. OK. Appreciate it.
    I will yield my time to the ranking member.
    Mr. Chaffetz. [Remarks made off mic.]
    Mr. Jordan. OK, thanks.
    Mr. Clay. I recognize the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Mr. Chairman, I appreciate that you have held 
this hearing and only regret that other congressional business 
kept me from attending. I am struck by the fact the Commission 
may have set a new record, 20 years at the same funding. 
Congratulations, I suppose. [Laughter.]
    Or shame on us. Whichever you choose.
    Mr. Chairman, I am not for nickel and diming part of the 
budget where there is no money in the first place. I am 
inclined to believe that the Commission has paid its dues in 20 
years at leveled funding.
    For my friends on the other side of the aisle who claim 
such reverence for the framers, pay up. Show it once in a 
while. It is like family values: I am for it until it costs 
some money.
    Now, I admit that I have a special interest. You have to 
indicate if you have any special interest. When I was getting 
my law degree, I also got a Masters in American History for the 
love of history. I have never used this disagree; I just 
thought that going to law school was like going to trade 
school. If one considered oneself a real intellectual, one had 
to really study something serious. And I have never regretted 
it because C. Van Woodward was at the university, and just the 
opportunity to study with one of the foremost historians in 
American history was worth every moment of it. It wasn't a very 
practical solution, but it certainly gave me an appreciation 
for why we would want to preserve as much of our history as we 
could.
    We have budgets that are busting at the gut. The President 
is right to hold down virtually everything, but if I may remind 
the subcommittee, this is an authorization. All it does is to 
set a limit. You go and ask the many agencies, Federal 
agencies, not to mention commissions, when they last got the 
authorized amount, and the memory will not serve most of them 
well enough to be able to tell you. So I would think that we 
owe the Commission a reasonable increase in keeping with these 
times, to be sure. But I would think it would be very pitiable 
to leave them where they were after the testimony that you have 
heard today.
    And I thank you very much, Mr. Chairman.
    Mr. Clay. I thank the gentlewoman. Do you have to leave?
    Ms. Norton. Unfortunately, Mr. Chairman, until you all pass 
my bill, I am the one that doesn't have to leave. Do you have 
to leave?
    Mr. Clay. I do.
    Ms. Norton. I see.
    Mr. Clay. Would you conduct the hearing?
    Ms. Norton. Is there another panel?
    Mr. Clay. Yes.
    Ms. Norton. Yes, sir. I would be glad to.
    Mr. Clay. All right.
    At this point, there are no further questions for this 
panel. We will dismiss this panel and ask the third panel to 
come forward. Thank you.
    Ms. Norton [presiding]. I want to thank this panel for 
coming forward. When the votes are over, the chairman will 
return.
    We are going to go first to Dr. Peter Gottlieb, the State 
Archivist of Wisconsin, representing the Society of American 
Archivists, of which he is the current president. Dr. Gottlieb 
joined the State Historical Society of Wisconsin in 1991, after 
serving in the Archives at Pennsylvania State and West Virginia 
University.
    Dr. Gottlieb.

  STATEMENTS OF PETER GOTTLIEB, STATE ARCHIVIST OF WISCONSIN, 
   REPRESENTING THE SOCIETY OF AMERICAN ARCHIVISTS; BARBARA 
     FRANCO, DIRECTOR, PENNSYLVANIA HISTORICAL AND MUSEUM 
COMMISSION, REPRESENTING THE AMERICAN ASSOCIATION OF STATE AND 
  LOCAL HISTORY; BARBARA TEAGUE, KENTUCKY STATE ARCHIVIST AND 
   RECORDS ADMINISTRATOR, REPRESENTING THE COUNCIL OF STATE 
 ARCHIVISTS; KAYE LANNING MINCHEW, DIRECTOR OF ARCHIVES, TROUP 
COUNTY, GA, REPRESENTING THE NATIONAL ASSOCIATION OF GOVERNMENT 
ARCHIVES AND RECORDS ADMINISTRATORS; AND SUSAN HOLBROOK PERDUE, 
   DIRECTOR, DOCUMENTS COMPASS, VIRGINIA FOUNDATION FOR THE 
   HUMANITIES, REPRESENTING THE ASSOCIATION FOR DOCUMENTARY 
                            EDITING

                  STATEMENT OF PETER GOTTLIEB

    Dr. Gottlieb. My name is Peter Gottlieb. I am the State 
archivist----
    Ms. Norton. Excuse me. I am sorry. The chairman does swear 
in all the witnesses.
    All rise and hold up your right hands, if you would.
    [Witnesses sworn.]
    Ms. Norton. Let the record reflect that the witnesses 
answered in the affirmative.
    Dr. Gottlieb.
    Dr. Gottlieb. My name is Peter Gottlieb. I am the State 
archivist of Wisconsin and director of the Library-Archives 
Division of the Wisconsin Historical Society. I am here today 
representing the Society of American Archivists, North 
America's oldest and largest organization of professional 
archivists, representing more than 5,700 members across the 
United States and in more than 20 countries.
    On behalf of my association and the wider archives 
community in the United States, I wish to thank you for 
convening this hearing. I offer my testimony in favor of 
increasing the authorization for the National Historical 
Publications and Records Commission's competitive grants 
program to $20 million and creating a new program for pass-
through grants that is also authorized at $20 million.
    In his election-night speech, President Elect Obama spoke 
eloquently of the enduring power of our ideals: democracy, 
liberty, opportunity, and unyielding hope. He added that our 
stories are singular, but our destiny is shared.
    From community institutions like public libraries and local 
historical societies throughout America to the National 
Archives vaults here in Washington, archives keep our stories 
as a public trust and make them available to all. Just as we 
protect our country's natural resources to sustain our way of 
life, we must also safeguard this Nation's archives in order to 
strengthen democratic government and to pass down from one 
generation to the next our record of progress and the values 
our society upholds.
    We need well preserved and accessible archives in order to 
write our school textbooks and design our instructional Web 
sites, in order to produce our documentary and feature films 
about America, in order to engage all citizens of our country 
in the continuing experiment of democratic government, and in 
order to inspire people around the world with the standards of 
human rights and opportunity that the United States at its best 
represents.
    NHPRC grants have provided essential support for this 
national goal, but its current authorization falls short of 
today's need. NHPRC is the only Federal program whose specific 
purpose is helping archivists and other professionals meet this 
national obligation. Its grants increase access to historical 
records and published documentary editions for use by classroom 
teachers, students, journalists, biographers, local historians, 
lawyers, genealogists, documentary film makers, and many 
others. In the majority of cases, NHPRC grants support new jobs 
for skilled professionals who do the preservation, digitizing, 
organizing, cataloging, or editorial work.
    NHPRC grants contribute to our Nation's documentary 
heritage in the following areas: processing archives to make 
important primary sources more quickly and easily available; 
developing and testing solutions to the challenge of preserving 
computer-generated records; providing technical assistance in 
training and archives work for archivists that need to improve 
their skills.
    NHPRC's competitive grants for archives are essential and 
must be funded at a higher level. But these grants by 
themselves cannot meet the range of needs to preserve and 
ensure access to all the historical records kept in American 
archives. Many local government and community repositories 
whose records constitute a vital part of our documentary 
heritage cannot qualify for competitive grants and do not 
benefit from any type of NHPRC funding.
    These archives that are also preserving our Nation's 
stories need help from NHPRC that can come through a new 
program of pass-through grants. Administered by State archives 
under rules directing the vast majority of funds to local 
archives, these grants can reach many more repositories to 
create new jobs, strengthen their access and preservation 
capabilities, more broadly protect our national archival 
resources, and bring the history recorded in many more 
documents to people throughout the country. This new pass-
through grants program should not subtract funding from 
competitive grants, but have an additional $20 million 
authorization.
    John F. Kennedy said, when he spoke in favor of NHPRC's 
initial authorization, compared with funds required for other 
programs for the national good, those requested by this 
Commission are modest indeed. His words remain true today. A 
reauthorization of $20 million for competitive grants and an 
additional $20 million for pass-through grants to States and 
territories is still comparatively modest indeed, but promises 
to make NHPRC even more effective in preserving our documentary 
heritage and ensuring its accessibility.
    Thank you.
    [The prepared statement of Dr. Gottlieb follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Norton. Thank you very much, Dr. Gottlieb.
    We hear next from Barbara Franco, director of the 
Pennsylvania Historical and Museum Commission, here today 
representing the American Association of State and Local 
History. Ms. Franco.

                  STATEMENT OF BARBARA FRANCO

    Ms. Franco. Thank you. Thank you for the opportunity to 
speak to you today about the value and importance of NHPRC. My 
name is Barbara Franco, and I am the executive director of the 
Pennsylvania Historical and Museum Commission. I am here today 
on behalf of a national organization, the American Association 
of State and Local History, whose more than 5,000 institutional 
and individual members represent the many historical societies, 
museums, libraries, archives around the country who together 
preserve the history of America in every county and corner of 
the country.
    The members include large institutions with State or 
national scope, as well as small local organizations and 
archives with limited and sometimes all-volunteer staff. 
Together they hold billions of documents that touch the lives 
of young and old, support tourism and economic development, and 
employ thousands of people. They include the irreplaceable 
founding documents of our country, alongside the records of 
small communities that define the experiences of the ordinary 
people whose lives they represent.
    The NHPRC helps these non-Federal institutions preserve 
records of historical value through grants that help locate, 
preserve, and provide public access to documents, photographs, 
maps, and other historical materials. These grants preserve 
collections and also preserve and create jobs by training staff 
and supporting the positions that provide these services.
    In an era where accountability of government is under 
greater than ever scrutiny, preserving the documentary heritage 
of national, State, and local governments also means preserving 
the rights of American citizens and ensuring an informed and 
engaged citizenry.
    As Charles F. Bryan, Jr., a past chairman of our 
organization and director emeritus of the Virginia Historical 
Society, has elegantly put it, free and open societies value 
history and turn to it for instruction. They devote significant 
resources to saving the evidence of the past and making it 
accessible to the public.
    Documentary heritage helps preserve and protects the rights 
of all, holds government accountable, and increases knowledge 
of our history and culture for generations to come. Historical 
documents are sometimes a matter of life and death. I would 
like to say that during the 2002 Quecreek Mine rescue in 
Somerset, PA, which some of you may remember, archival maps 
were key in locating the trapped miners and saving their lives. 
Historical plats and deeds are continually referenced to 
establish legal ownership and property rights. Military service 
records are used to establish pension and other benefits.
    NHPRC is the agency that provides institutions like the 
Pennsylvania Historical Museum Commission and other State and 
local institutions with the funding to preserve these 
historical documents. These projects train or employ archivists 
and make it possible for lawyers, teachers, biographers, 
authors, journalists, and teachers to do their work. A recent 
grant in Pennsylvania, for example, has supported an itinerant 
archivist program that funds a professional archivist to work 
with the staff of local governments to do assessments, make 
recommendations and train their staff to better care for the 
records. These programs not only create work for the 
archivists, but help train local government employees to more 
effectively handle their own records.
    Across the country, examples abound of how NHPRC is making 
a difference at the State and local level to preserve documents 
the public needs and uses. The Federal-State partnership with 
State Historical Records Advisory Boards have been key to the 
success of the grants programs, and these and other examples of 
how States are working with many diverse collections is 
testimony to the strength of the program. In addition, NHPRC 
has supported national initiatives through organizations like 
ASLH. Some of these grants have fostered regional cooperation 
and addressed major national issues like electronics records 
management.
    NHPRC has been authorized at $10 million for nearly 20 
years, since 1991. Now more than ever, with the need for 
trained staff, the importance of digital collections, the need 
to share information with the public, and the demand for access 
to these collections, increased NHPRC support is sorely needed. 
We are asking that funding for NHPRC be reauthorized at $20 
million to help members of the public, archivists, documentary 
editors, and historians by preserving and making available non-
Federal records that are essential to our national history and 
to the daily functioning of our democracy and our economy.
    Thank you.
    [The prepared statement of Ms. Franco follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Norton. Thank you, Ms. Franco.
    Next, Barbara Teague, Kentucky State archivist and records 
administrator, and here today representing the Council of State 
Archivists, of which she is vice president and president-elect. 
Ms. Teague was appointed State Archivist in 2008. Ms. Teague.

                  STATEMENT OF BARBARA TEAGUE

    Ms. Teague. Thank you, Representative Norton, and thank you 
to you and the rest of the members of the subcommittee and 
Chairman Clay for holding this hearing. We really appreciate 
the opportunity to be here and talk about the National 
Historical Publications and Records Commission.
    As you mentioned, I am Barbara Teague, and I am the vice 
president of the Council of State Archivists, and I am the 
State archivist in the Commonwealth of Kentucky. I have worked 
there for 27 years and I have 27 years of experience with NHPRC 
grants, and I know how effective those grants have been and how 
much more remains to be done with the grants.
    CoSA, the Council of State Archivists, represent all 50 
State archivists, the District of Columbia, and the U.S. 
territories. CoSA's mission is to strength State and 
territorial archives and their work to preserve the America 
historical record. Most State archivists also serve as the 
chairs of their State Historical Records Advisory Boards, which 
we have all talked about earlier.
    On behalf of CoSA, the archival profession, and most of all 
the millions of citizens who rely on archives and records, I 
ask that you reauthorize NHPRC not at $20 million, but at $40 
million. Twenty million of that $40 million would go to 
national competitive grants, sort of like a program that we 
have now, and $20 other million would go for pass-through 
grants to the States that the State Historical Record Advisory 
Boards would then administer on their own according to the 
needs and priorities within the States.
    Over the last 3 years, State archival agencies have endured 
very extreme budget cuts, many in excess of 20 percent; my own 
agency 25 percent. This has had a very negative effect on our 
Nation's records and on the individuals who depend on those 
records. In an era of significantly increased emphasis on 
government transparency, government records continue to play an 
even more crucial role.
    From deeds, marriages, court cases, student school 
transcripts, and wills on the local government level, to 
documentation of licensing, human services, and environmental 
controls on the State level, to military service, health care 
and citizenship among the many functions of the Federal 
Government, records touch each of us as individuals. When 
archival documents are preserved in our States and communities, 
we protect the evidence of land ownership, the rights and 
privileges of individual citizens, the right to know about the 
workings of government, the genealogy of our families, and the 
cultural heritage of America.
    NHPRC has consistently provided the Federal Government's 
only support archives in nearly every State, and that is NHPRC, 
not IMLS and not NEH. In Mississippi, emergency funds after 
Hurricane Katrina helped save valuable historical records on 
the Gulf Coast. NHPRC is currently supporting the New York 
State Archives in identifying and preserving the documents of 
families who lost loved ones during the World Trade Center 
attack. Every State, every territory, every local community has 
similar needs, from developing disaster plans that protect 
essential records to documenting the history of the civil 
rights movement to creating tools to bring historical records 
into the classroom and get children excited about learning.
    In my own State, a grant of $200,000 from the NHPRC in 1983 
ultimately led to the Kentucky Local Records Program, which has 
awarded over $16 million in grants. That is an 8,000 percent 
return on investment. The program has preserved almost every 
important record in Kentucky's 120 counties. Yes, we have 120 
counties, and they each have about 50 offices, and that has 
created countless jobs to care for the archives across our 
State.
    And please know that money for archival projects means 
money for jobs. CoSA's analysis of existing NHPRC grant 
projects shows that at least 75 percent of all grant funds are 
used for staff, demonstrating that money for archives generally 
equates to money for jobs. My first archival job was working on 
an NHPRC grant, and I did a quick survey of all the other State 
and territorial archivists, and there are at least 12 of us who 
started our professional careers with NHPRC funding, and we 
really didn't make much money, I can tell you.
    But not just because of that, but because we know, as the 
chairs of our State boards, we see the needs in the States, I 
ask on behalf of all the State archivists in the United States 
and all the territorial archivists to allow NHPRC to make a 
comprehensive enduring impact to benefit our constituents and 
yours in every single State and territory and every community 
by increasing the NHPRC appropriation to $40 million. NHPRC 
funding is essential to preserving the history of our Nation.
    I would really be happy to answer any questions about NHPRC 
and its effect on our citizens and how State archivists need 
more resources to care for essential government records. Thanks 
again for this great opportunity to speak about the NHPRC.
    [The prepared statement of Ms. Teague follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Norton. Thank you, Ms. Teague.
    Our next witness is Kaye Lanning Minchew, the director of 
Archives for Troup County, GA, here today representing the 
National Association of Government Archives and Records 
Administrators. Ms. Minchew has been director of Troup County 
Archives since 1985.

               STATEMENT OF KAYE LANNING MINCHEW

    Ms. Minchew. Good afternoon, Representative Norton and 
members of the subcommittee. My name is Kaye Lanning Minchew, 
and I have been director of the Troup County Archives in 
LaGrange, GA, since 1985. I am representing the National 
Association of Government Archivists and Records Administrators 
[NAGARA]. I also co-chaired the Council of State Archivists 
``Closest to Home Project'' about local government records. I 
want to thank you for the opportunity to speak in support of 
reauthorization for the National Historical Publications and 
Records Commission [NHPRC].
    NAGARA is a professional organization dedicated to the 
effective management of government information and its 
continued availability at all levels of government. Our 
constituents include archivists and records managers for over 
21,000 local, State, tribal, and Federal Government entities in 
the United States responsible for records in their care, the 
records that document the actions of governments, the 
communities and citizens. Local government agencies are 
inundated with large collections of records and are begging for 
assistance with maintaining and providing access to these 
resources. NHPRC is a valuable partner and key to the continued 
availability of the records legacy of these entities.
    The records we house in local repositories include a wide 
variety of materials. The majority is paper documents, but a 
growing amount is available in electronic format. Records 
include birth and death, voter registration, census forms, 
coroner's inquests, criminal cases, and much more. Materials 
include land records which deeded a slave woman and her young 
to a family leaving Georgia for Texas. Other items helped bring 
to justice a cold case murder that had lain dormant for over 30 
years.
    We also have files that show environmental and cultural 
changes over the years and support homeland defense. Our 
heritage is at risk every day. An archives or courthouse burns 
or destroyed by a tornado, and unique collections are lost or 
electronic records can't be opened. On a personal level, 
perhaps a recording your father made about his World War II 
service has been damaged over time. Your grandchildren will not 
be able to hear his voice or his story. Records at the local 
level touch the lives of our citizens every day and in a very 
direct way.
    NHPRC provides grant funding that is essential to ensuring 
the preservation of archival records that provide the 
foundation for historical research in this country. Since 1976, 
NHPRC has awarded over 4,800 grants, 250 of these to local 
governments or programs of local records. Two of these awards 
were made to the Troup County Archives. Both grants have been 
extremely important in our existence.
    An additional note about grants, as others have mentioned: 
they almost always result in jobs. By our estimations, at least 
70 percent of grant funds go to pay people. At a time of high 
unemployment, NHPRC grants and pass-through grants to States 
would stimulate jobs, jobs that often lead to permanent 
employment after grants end. Many of us in the profession, 
including myself, got our start in archival work this way.
    Without NHPRC, the archival community has few options for 
support in caring for historically valuable records. We have 
seen the positive impact that NHPRC grants have made in 
thousands of large and small organizations and communities 
throughout our country. The current authorized funding level of 
NHPRC is woefully inadequate. NHPRC should be reauthorized and 
appropriated at a significantly higher level.
    In addition to more funding, NHPRC should be expanded to 
include a pass-through grant program with resources directed to 
States and localities to ensure that documents and archival 
records in many forms can be readily used for a host of 
purposes by the people of this Nation.
    Only by reauthorizing NHPRC and expanding its programs to 
include pass-through grants to States will we be able to ensure 
that this important component of the America historical records 
survives. Thank you.
    [The prepared statement of Ms. Minchew follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Norton. Thank you very much, Ms. Minchew.
    Finally, Susan Holbrook Perdue, the director of Documents 
Compass, and here representing the Association for Documentary 
Editing, of which she is the incoming president. Ms. Holbrook 
was formerly the senior associate editor of the Papers of 
Thomas Jefferson Retirement Series. Ms. Perdue.

               STATEMENT OF SUSAN HOLBROOK PERDUE

    Ms. Perdue. Thank you, Acting Chairman Norton. I am Susan 
Holbrook Perdue, president-elect of the Association for 
Documentary Editing [ADE]. I am very grateful for this 
opportunity to speak on behalf of my professional organization 
in support of reauthorization of the NHPRC and an increase in 
its funding.
    The primary message I want to convey to this committee is 
just how essential the work is that documentary editors do and 
its importance to every American. As a society, we need the 
sort of expertise that editors provide in order to clearly 
understand the historical record and so that we might have 
informed and reasoned debate as part of a true democracy. This 
is not a partisan endeavor, but a mission to establish the 
definitive works of our historical legacy.
    This is especially important when it comes to the texts of 
our founding fathers. These documents are at the core of our 
Nation's history and they continue to be the substance of 
significant debate. Many Americans want to lay claim to them, 
and they should. These documents are part of everyone's story. 
For this reason, they deserve the time and attention that they 
receive from the scholars who are now editing them.
    The ADE was founded in 1978 to promote documentary editing 
and to build on our shared commitment to the highest 
professional standards of accuracy of transcription, editorial 
method, and intellectual access to our Nation's documentary 
heritage. The organization now has more than 350 members who 
work with a broad range of historical and literary figures. 
Many of our members depend on NHPRC funding.
    Editors preserve the documentary record by creating a 
comprehensive catalog for all the known writings of an 
individual. We have performed a valuable service for future 
generations by collecting and preserving these unique archives 
in one place. Documentary editors play a beneficial role in 
establishing the documentary record because they authenticate 
and provide authoritative versions of the letters and documents 
produced by their subjects. Editors become experts on all 
aspects of their subject matter, from their handwriting to 
their habits.
    The documentary editions of the founding fathers, the 
papers of John Adams, Benjamin Franklin, Thomas Jefferson, 
James Madison, and George Washington, all have a long and 
integral history with the National Archives itself, as do the 
documents associated with the ratification of the U.S. 
Constitution, the first Federal Congress, and the early Supreme 
Court. Make no mistake about it, these projects are publishing 
the records of our Federal Government.
    One of the most beneficial tasks we perform as editors is 
ensuring that documents make sense to modern audiences. Editors 
reveal the hidden meaning in documents through extensive 
research. This work takes time.
    Historical documentary editions and records are used by an 
ever-widening audience, ranging from school children to 
advanced scholars, as well as genealogists, curators, and the 
general public. Projects such as the Eleanor Roosevelt Papers 
produce lesson plans for ages K through 12. Ken Burns' recent 
documentary film on the National Parks drew on the John Muir 
papers project that was supported by NHPRC. And recent episodes 
of American Experience and History Detectives featured editors 
from three separate NHPRC sponsored projects.
    Many editors are now retooling in order to meet the demands 
of both print and digital publication. In order to respond to 
this new digital world, they look to organizations such as the 
NHPRC to provide the necessary funding to enable this to 
happen. There is substantial work to be done on digitizing and 
providing additional editorial resources to make the thousands 
of rolls of microfilm from projects done in the 1960's and 
1970's available on the Internet. New efforts will need new 
support.
    Nonetheless, our mission as documentary editors has changed 
little over time, even with the added challenge of publishing 
online. We will adhere to the same high standards we have 
always followed, regardless of the ultimate medium. We are 
indeed at a crossroads. This is true not only for the 
profession of documentary editing, but for archives and 
repositories worldwide.
    As we read about the perceived negative impact of the 
Internet on people as they are increasingly gathering their 
knowledge through multitasking and sound bites, all of which 
threaten to shorten our attention spans, we recognize the 
urgent need for reliable, durable, and rich content on the 
World Wide Web. Now more than ever we want the good to drive 
out the bad. If we cutoff support to NHPRC and to the editors 
and projects that have produced superlative editions for over 
half a century, we cutoff their ability to reach a new global 
audience in ways none of us could have imagined 20 years ago.
    Thank you.
    [The prepared statement of Ms. Perdue follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Norton. Thank you, Ms. Perdue. I couldn't help but 
notice that you are not saying that the next step that 
archivists have go to is tweeting. [Laughter.]
    Or even Facebook, maybe. I don't know, Facebook may not be 
so bad.
    Ms. Perdue. Right. Right.
    Ms. Norton. Let me ask a series of questions that I think 
will be important for our record. I want to say that while I 
represent 600,000 taxpaying residents deprived of the right to 
vote on what is happening on the floor right now, I certainly 
vote in this committee, and I have a strong interest in the 
testimony you and the witnesses before you have provided.
    Let's start with Dr. Gottlieb. Could you explain the impact 
of the grants, the NHPRC grants, on the employment of 
archivists across the country? Do you have any sense of whether 
archivists, for example, are the first to go in budget cuts, 
the effect that the present recession has had on them or what 
it would mean in terms of jobs if this funding were available?
    Dr. Gottlieb. In my experience, NHPRC grants almost always 
create new positions, new jobs to carry out the work that the 
recipients of the grants have committed to do. The critical 
resource that archives lack, and the reason that NHPRC is so 
important to them, is funding for staff to examine records, to 
organize them, to preserve them, to scribe them so that they 
can be easily used.
    Archives, generally speaking, don't buy expensive 
equipment. We don't need NHPRC to build buildings for us or to 
rent space for us. What we need the grants for, and the work 
that the grants help us do, is to make the records accessible; 
and for that the critical resource is people, is staff. So 
these grants, in many, many cases, create jobs.
    Ms. Norton. This is a labor sensitive matter, then. We are 
talking about people, not things.
    Ms. Franco, you are aware that some have said that the 
NHPRC is wasteful and redundant. I wonder what your response to 
that would be and whether you think there are the sources of 
support at the State and local level for the kinds of projects 
that the NHPRC grants make possible.
    Ms. Franco. Well, I would say that there are obviously 
other funding sources, but they do not cover the kind of work 
that is covered by NHPRC, and----
    Ms. Norton. They don't cover it, the States' fund don't 
cover the same kinds of work?
    Ms. Franco. Well, I can tell you that in Pennsylvania the 
availability of funding for help for local governments, for 
other archival groups, and for our own collections is not 
there, so we really do rely on that national level.
    I know that there was some discussion in the previous 
panels about the difference between IMLS and NEH and some of 
the other Federal funding programs. I think one of the things 
about NHPRC is this is the nuts and bolts; this is the basic 
stuff. I can tell you that in our organization, our archives, 
and I think this is repeated, there are backlogs of boxes of 
records that are there being saved, but they are not available 
to the public because they haven't been processed, they haven't 
been described.
    So the need to bring the documents that we hold into a 
format that they can be used is not the stuff of excitement; it 
is not the kind of thing that granting agencies foundations are 
funding. This is the nuts and bolts of our historical record, 
and NHPRC is the one place that comes from. Other places will 
do projects, they will do exhibits, they will do other kinds of 
things like that, but you can't get to those products unless 
you have the records available to scholars and people who are 
doing that work.
    Ms. Norton. Ms. Teague, a number of you have indicated 
examples of work that has been funded through these grants. Are 
there, in your view, examples of works that simply could not or 
would not have been done except for such grants?
    Ms. Teague. Oh, absolutely. That is especially true in my 
State of Kentucky. We have been the beneficiary of several 
NHPRC grants over the past 25 years. One started our electronic 
records program in 1985, where we started working with State 
and local governments on electronic records or, as we called 
them back in the 1980's, machine-readable records, to try to 
capture the earliest electronic records. So back in Kentucky we 
have computer records that go back to the 1960's and 1970's, 
where some other States may not have had that. And that just 
started with I think it was $180,000 from the NHPRC.
    Currently we have seven staff who are employed working on 
those issues. We work with State and local governments around 
the State, around Kentucky. We have a commission where we work 
with information technology components of State government 
where we are working with computer records throughout the 
State. And that really just started with what we like to think 
of as seed money from the NHPRC, and we were able to grow that 
into a very large program that is trying to take care of----
    Ms. Norton. Once you had the seed money, how were you able 
to fund it?
    Ms. Teague. We talked to the legislature back in the 1980's 
and we were able to add a couple more positions to the State 
archives so that we could work with State government and local 
governments for electronic records. So we really have a very 
good electronic records program now that has been in existence 
for 25 years because of NHPRC.
    We also had, as I mentioned earlier, our local records 
program, which many other States have also copied, where we 
give grants to local governments to reformat records, to do 
some preservation work, to do research through genealogy, and 
that never would have happened without NHPRC money. So that is 
where we have given out $16 million in grants in Kentucky just 
because NHPRC gave us $200,000 in 1983.
    We have also had several instances around the State that 
have come through the State Historical Records Advisory Board 
that were recommended by our State board to NHPRC and then were 
funded by NHPRC, including we recently had a grant to our local 
cooperative, Apple Shop, which is in Whitesburg, KY. They did 
some early mountain television programs where they went out and 
captured folk life, people quilting, people singing, playing 
with dulcimers. So some of the video from the 1960's has 
actually been digitized and made available through a grant from 
NHPRC. So there are so many things just in my State.
    Another thing that NHPRC does for all of us, for the State 
archives and the State boards, is we have planning money from 
NHPRC to work with the State Historical Records Advisory Board 
so that we can actually make plans for the priorities within 
our State. You know, we don't really want Washington to tell us 
what to do in Kentucky every instance; we want to make our own 
plans. We want to look and see what the needs are in Kentucky.
    For one thing, we have a lot of religious communities. We 
have several Catholic Mother Houses in Kentucky, so we want to 
work with them; their records are very interesting. They have a 
lot of school records, records of the people that were in their 
community. So there are things like that the Mount St. Joseph 
Archives might not be able to apply for an NHPRC grant, but 
they could come to the Kentucky State Historical Records 
Advisory Board for advice and assistance, which is one reason 
we are interested in these pass-through grants as another 
program that NHPRC could operate for the benefit of the States.
    Ms. Norton. That is very helpful, Ms. Teague, particularly 
your discussion of seed money and planning money. You know, 
when seed money grows money for the State, that is something 
that the Congress has to be aware of, that it is encouraging 
other money. When you were asked or when prior witnesses were 
asked, you know, isn't there some other money, well, if the 
Federal Government leads by example, maybe there will be other 
money. The notion of planning money is very important. Those 
are small amounts yielding a great deal.
    Ms. Minchew, now, you are a local archivist, and some, 
particularly coming from some parts of the country that want 
the Federal Government involved in defense only, I suppose we 
ought to be able to answer the question why should Federal 
money go all the way down to the local level to fund 
preservation of local records. Would you like to comment on 
that?
    Ms. Minchew. Certainly. Several reasons. One is that the 
local records, in most cases, most directly document the lives 
of the citizens of the United States. So we have had a grant 
documenting 19th century court records. Those document the 
lives of thousands of citizens in Troup County that are very 
much representative of citizens across the country.
    Another reason is, to use the current example of the oil 
spill in the Gulf, if we were to save only the records of the 
Federal Government from this crisis, and not save any of the 
records of the numerous local governments affected by this 
crisis and how these local governments are facing the crisis 
right now, we will only get maybe half the story; maybe not 
that much of the story. So it is the full picture that gives 
the historians the stuff to work with and the chance to be 
accurate in their histories that they write.
    Ms. Norton. Thank you very much, Ms. Minchew.
    Finally, Ms. Perdue, I wonder if you could briefly describe 
documentary editing. What is that and why are the grants of the 
Commission so important for funding it?
    Ms. Perdue. I tried to convey a bit of the overview of what 
it is in my short statement, but I touch on it more in depth in 
the longer testimony. It really is a process of making these 
documents accessible and understandable to users. In some cases 
documents have foreign language, have code or cipher, and most 
users would never be able to use them without the work editors 
do.
    What was the second part of the question?
    Ms. Norton. Why they are critical for Commission support in 
particular, if you think they are. Would they be supported 
otherwise?
    Ms. Perdue. Well, I can say that, just generally speaking, 
most projects do not rely on NHPRC alone; they couldn't rely on 
the grants. The grants are not that large. Most of the projects 
that I am familiar with have staffs of at least five people, 
and an NHPRC grant may pay for the salary of only a part of 
that staff. They also obtain a combination of grants from other 
organizations, such as NEH. They may look to private 
foundations. But no single foundation or institution is 
supporting these projects in full.
    Ms. Norton. I am going to ask the chairman if he has any 
questions. I still should ask him. Mr. Chairman, do you have 
any questions for these witnesses?
    Mr. Clay. Just let me summarize.
    Ms. Norton. Please do that, sir.
    Mr. Clay. And thank all of the witnesses.
    Ms. Norton. You are in a particular position to do so, 
having been on the floor voting.
    Mr. Clay. I voted for you too. [Laughter.]
    Let me thank all of the witnesses today, all three panels 
who came and gave their time today and highlighted the 
importance of the NHPRC. It is invaluable how you document and 
chronicle the history of this country and we are certainly 
supportive of those efforts here, and hopefully we will move 
this bill forward and ensure that we secure additional funding 
for this valuable agency.
    With that, I say thank you.
    Ms. Norton. Mr. Chairman, would you like me to close the 
hearing?
    Mr. Clay. Yes.
    Ms. Norton. So ordered. Thank you very much.
    [Whereupon, at 5:34 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre></body></html>
